BUREAU OF ALCOHOL, TOBACCO,

  FIREARMS AND EXPLOSIVES

ANNUAL FINANCIAL STATEMENTS

     FISCAL YEAR 2012

        U.S. Department of Justice

      Office of the Inspector General

               Audit Division


           Audit Report 13-08

             January 2013

             BUREAU OF ALCOHOL, TOBACCO,

               FIREARMS AND EXPLOSIVES

             ANNUAL FINANCIAL STATEMENTS

                   FISCAL YEAR 2012


              OFFICE OF THE INSPECTOR GENERAL

                 COMMENTARY AND SUMMARY


       This audit report contains the Annual Financial Statements of the
Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF) for the fiscal
years (FY) ended September 30, 2012, and September 30, 2011. Under the
direction of the Office of the Inspector General (OIG), Cotton & Company LLP
performed ATF’s audit in accordance with auditing standards generally
accepted in the United States of America. The audit resulted in an
unqualified opinion on the FY 2012 financial statements. An unqualified
opinion means that the financial statements present fairly, in all material
respects, the financial position and the results of the entity’s operations in
conformity with U.S. generally accepted accounting principles. For FY 2011,
ATF also received an unqualified opinion on its financial statements (OIG
Report No. 12-14).

       Cotton & Company LLP also issued reports on internal control over
financial reporting and on compliance and other matters. The auditors
identified one significant deficiency in internal control in the FY 2012
Independent Auditors’ Report on Internal Control over Financial Reporting.
The significant deficiency related to weaknesses in review and oversight of
financial reporting. Specifically, ATF needs to improve internal controls over
cash, monetary instruments, and other properties seized for evidence, and
year-end unfilled customer order balances to ensure the accuracy of its
financial statements.

      No instances of non-compliance or other matters that are required to
be reported under Government Auditing Standards were identified during the
audit in the FY 2012 Independent Auditors’ Report on Compliance and Other
Matters. Additionally, Cotton & Company LLP’s tests disclosed no instances
in which ATF’s financial management systems did not substantially comply
with the Federal Financial Management Improvement Act of 1996.

      The OIG reviewed Cotton & Company LLP’s reports and related
documentation and made necessary inquiries of its representatives. Our
review, as differentiated from an audit in accordance with Government
Auditing Standards, was not intended to enable us to express, and we do not



                                     -i-
express, an opinion on ATF’s financial statements, conclusions about the
effectiveness of internal control, conclusions on whether ATF’s financial
management systems substantially complied with the Federal Financial
Management Improvement Act of 1996, or conclusions on compliance with
laws and regulations. Cotton & Company LLP is responsible for the attached
auditors’ reports dated November 5, 2012, and the conclusions expressed in
the reports. However, our review disclosed no instances where Cotton &
Company LLP did not comply, in all material respects, with auditing
standards generally accepted in the United States of America.




                                   - ii -
                 BUREAU OF ALCOHOL, TOBACCO,

                   FIREARMS AND EXPLOSIVES

                 ANNUAL FINANCIAL STATEMENTS

                       FISCAL YEAR 2012


                          TABLE OF CONTENTS


                                                                              PAGE


MANAGEMENT'S DISCUSSION AND ANALYSIS..........................................3


INDEPENDENT AUDITORS’ REPORTS


  REPORT ON FINANCIAL STATEMENTS ................................................ 29


  REPORT ON INTERNAL CONTROL OVER FINANCIAL REPORTING............ 31


  REPORT ON COMPLIANCE AND OTHER MATTERS ................................ 39


PRINCIPAL FINANCIAL STATEMENTS AND RELATED NOTES


  CONSOLIDATED BALANCE SHEETS.................................................... 43


  CONSOLIDATED STATEMENTS OF NET COST ...................................... 44


  CONSOLIDATED STATEMENTS OF CHANGES IN NET POSITION............. 45


  COMBINED STATEMENTS OF BUDGETARY RESOURCES ........................ 46


  COMBINED STATEMENTS OF CUSTODIAL ACTIVITY............................. 47


  NOTES TO THE PRINCIPAL FINANCIAL STATEMENTS ........................... 48


REQUIRED SUPPLEMENTARY INFORMATION


  COMBINING STATEMENTS OF BUDGETARY RESOURCES ...................... 87


OTHER ACCOMPANYING INFORMATION


  COMBINED SCHEDULE OF SPENDING ................................................ 91


APPENDIX


  OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND SUMMARY

    OF ACTIONS NECESSARY TO CLOSE THE REPORT .......................... 95

This page intentionally left blank.
Management’s Discussion and Analysis


              Unaudited





              -1-
This page intentionally left blank. 





                -2-
                                              U. S. Department of Justice

                                  Bureau of Alcohol, Tobacco, Firearms and Explosives

                                        Management’s Discussion and Analysis

                                                       Unaudited


MISSION


The Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF or the Bureau) is a law enforcement
organization within the U.S. Department of Justice (DOJ). ATF is dedicated to the reduction of
violent crime, prevention of terrorism, and protection of our Nation. ATF investigates and prevents
crimes that involve the unlawful manufacture, sale, possession and use of firearms and explosives; acts
of arson and bombings; and illegal trafficking of alcohol and tobacco products. ATF regulates the
firearms and explosives industries from manufacturing and/or importation through retail sale. We
screen and license entities that engage in commerce in these commodities, and specify the form and
content of their business records. In the case of explosives, we have established standards for the safe
storage of materials to which licensees must adhere.

                                                  Illegal
                                                                  ATF groups its activities into 10 core functions.
                                                 Firearms         Through these core functions ATF reduces violent
                                                Trafficking
                                                                  crime by enforcing Federal laws and regulations
  SIX STRATEGIC GOALS




                        Mission Activities    Criminal Groups
                                                 and Gangs        related to firearms, criminal groups and gangs,
                                             Explosives, Bombs
                                                                  explosives, arson, alcohol and tobacco.
                                               and Bombings

                                                ATF’s Strategic Plan for 2010 – 2016 defines six
                                               Fire and Arson
                                                of its core functions as strategic goals; four core
      Management            Modernization       mission activities and the two core management
        Activities                              activities. The mission goals in illegal firearms
                             Workforce
                                                trafficking, criminal organizations, explosives, and
                                                fire/arson reflect our core areas of expertise, which
we consistently work to strengthen. The management goals — modernizing our organization and
managing our workforce — will support our mission and ensure its successful accomplishment. The
management framework focuses on strategic planning, budgeting, performance measurement, and
Bureau operations.

Mission Activities:

           •	 Strategic Goal - Illegal Firearms Trafficking: Reduce violent firearms crimes by
              strengthening firearms trafficking intelligence gathering, analysis, inspection, and investigative
              activities.
           •	 Strategic Goal - Criminal Groups and Gangs: The prevalence of criminal groups and gangs
              requires strategies to make our communities safer by expanding our efforts to identify, target,
              and dismantle those criminal gangs and organizations that utilize firearms, arson, explosives
              and alcohol and tobacco diversion in furtherance of violent criminal activity.




                                                                 -3-
   •	 Strategic Goal - Explosives, Bombs and Bombings: Advance domestic and international
      explosives expertise to prevent, detect, and investigate acts of violent crime and terrorism and
      to enhance public safety.
   •	 Strategic Goal - Fire and Arson: Advance the science of fire investigation globally, by
      setting and delivering the highest standards in response, research, information sharing, and
      training.

Management Activities:

   •	 Strategic Goal - Modernization: Modernize business processes and systems for improved
      information sharing, knowledge management, and use of innovative technologies to support
      ATF’s critical mission.
   •	 Strategic Goal - Workforce: Attract, develop, and retain an expert workforce to execute the
      ATF mission in the emerging business environment.

VISION

We Are ATF - A dedicated team securing America’s future by accomplishing a critical mission today.

We Protect America.

We Protect Your Community.


VALUES

We value our people and those we serve.

We value professionalism, integrity, diversity, commitment, innovation, and excellence.

We value partnerships that promote the safety of our communities.


ORGANIZATIONAL STRUCTURE

ATF’s national headquarters, located in Washington, DC, includes offices that develop major policies
and programs in accordance with the applicable laws and regulations that ATF enforces. ATF’s
executive structure consists of the Director, Deputy Director, Executive Assistant Director, Chief
Counsel, Chief of Staff, and the Assistant Directors for Field Operations; Enforcement Programs and
Services; Strategic Intelligence and Information; Professional Responsibility and Security Operations;
Public and Governmental Affairs; Management; Science and Technology/Chief Information Officer;
and Human Resources and Professional Development. These executives form the Bureau’s Strategic
Leadership Team, which oversees and approves large investments such as buildings, relocations,
information technology (IT) investments, and equipment. The Offices of the Chief of Staff,
Ombudsman, Equal Opportunity, and Strategic Management, and the Disclosure Division are key
components of the Office of the Director.




                                               -4-
ATF has offices throughout the United States, including Puerto Rico, the Virgin Islands and Guam.
ATF also has a presence at U.S. embassies in El Salvador, Colombia, Mexico, and Canada; U.S.
Consular offices in Tijuana, Ciudad Juarez, Guadalajara and Monterrey, Mexico; Interpol
Headquarters in Lyon, France; and at Europol in The Hague, Netherlands, to address the trafficking of
firearms, explosives, alcohol, and tobacco. The field structure is comprised of 25 field divisions
strategically located throughout the United States, with a single executive heading each office and
having responsibility for all law enforcement and industry regulation within the geographical area.



                                 ATF ORGANIZATION CHART




                                               -5-
FINANCIAL STRUCTURE

ATF’s primary funding source is an annual appropriation, which funds salaries, operating expenses,
property and equipment, as authorized by law. ATF may also receive appropriations to cover specific
needs, such as expenses incurred as the result of the relocation of law enforcement frequencies in the
radio spectrum. However, these appropriations are situational in nature and occur as the need arises.
In addition, ATF has agreements with other Federal entities, including the Department of Justice
Assets Forfeiture Fund, to reimburse authorized ATF expenses.

ATF’s central budget office formulates, allocates and executes all funding among the directorates.
The Budget Branch (BB) interprets all Treasury, Government Accountability Office (GAO), Office of
Management and Budget (OMB) and General Services Administration (GSA) regulations relevant to
budget formulation and execution. In addition, the BB directs the procedures for formulation,
presentation and execution of the Bureau's budget. Other responsibilities include:

   •	   Performs apportionment and allocation of funds;
   •	   Performs continual analyses of the Bureau's financial posture;
   •	   Prepares budget integration of short and long-term program planning, reprogramming and
        reapportioning of funds;
   •	   Prepares the formal budget submissions to the Department, OMB, and the Congress for

        approval;

   •	   Prepares briefings for top management on all budget presentations for formal hearings and
        annual/mid-year reviews of allocations;
   •	   Initiates supplemental and amendments to the budget based on program requirements;
   •	   Maintains historical budget files and workload statistics; and
   •	   Supports the orderly allocation of human resources through internal position ceilings.

ANALYSIS OF FINANCIAL STATEMENTS

ATF prepares the principal financial statements required by OMB Circular A-136, Financial
Reporting Requirements and the DOJ Financial Statement Requirements and Preparation Guide.

The Consolidated Balance Sheet is a presentation of ATF’s assets, liabilities, and net position as of the
end of the fiscal year. Assets represent the amounts of future economic benefits that are owned or
managed by the Bureau. Liabilities are the amounts that are owed by the Bureau and net position
comprises the unexpended appropriations and the cumulative results of operations.

Total assets as of September 30, 2012 and 2011, were $550.4 and $556.7 million, respectively with a
decrease of approximately 1.1 percent. The Fund Balance with the Treasury represents approximately
42.3 percent of assets in FY 2012 and 43.4 percent in FY 2011.

Total liabilities as of September 30, 2012 and 2011, were $356.5 million and $352.3 million,
respectively. The increase of $4.2 million or 1.2 percent is primarily due to an increase in liabilities
from project-generated proceeds of $1.2 million and an increase in the FECA Actuarial Liability of
$6.3 million as well as an overall decrease in accounts payable of $3.5 million.




                                                 -6-
The Consolidated Statement of Net Cost presents the gross operating costs and any related exchange
revenue for the reporting period. The bottom line is the net cost to operate and run the Bureau
programs for the fiscal year. ATF records the full cost of all transactions, including imputed costs
absorbed by other entities. The net costs of operations as of September 30, 2012 and 2011 were
$1,203.7 million and $1,182.4 million, respectively, an increase of approximately $21.3 million.

The Consolidated Statement of Changes in Net Position presents both the net cost of operations and
how those costs were financed, whether from appropriations, transfers, or imputed financing.
Unexpended appropriations as of September 30, 2012 and 2011 were $175.1 million and
$174.2 million, respectively. The increase is approximately 0.5 percent. The Net Position as of
September 30, 2012 and 2011 was $193.9 million and $204.4 million, respectively, with a decrease of
approximately 5.1 percent. The FY 2012 appropriations increased by $37.2 million or 3.3 percent.

The Combined Statement of Budgetary Resources presents how resources are received by ATF,
whether through appropriations, other authorities, or reimbursements and recoveries. The Combined
Statement of Budgetary Resources also provides the status of those resources, including the amounts
that are obligated, and whether the source of those obligations is direct or reimbursable funds.
Obligations incurred as of September 30, 2012 and 2011 were $1,279.3 million and $1,260.4 million
respectively, or an increase of approximately 1.5 percent.

The Combined Statement of Custodial Activity presents non-exchange revenue consisting of fees and
licenses that ATF collects and distributes and proceeds from undercover operations. Non-exchange
revenues are unavailable for use by ATF and are transferred to the General Fund of the Treasury. The
primary sources of these collections are firearms and explosive licenses and import fees. The total
custodial revenue as of September 30, 2012 and 2011 was $24.7 million and $21.5 million,
respectively. The increase of approximately 15.0 percent is primarily due to an increase in the
application volume and related payments, for National Firearms Act (NFA) transfers and/or
registration of NFA class weapons.




                                               -7-
                                   Table 1. Source of ATF Resources
                                         (Dollars in Thousands)


                          Source                                    FY 2012             FY 2011       Change%
Earned Revenue                                                  $       81,369 $            91,300      -11%
Budgetary Financing Sources
  Appropriations Received                                             1,152,000          1,114,772       3%
  Appropriations Transferred-In/Out                                    (15,067)             (7,892)     91%
  Other Adjustments and Other Budgetary Financing Sources                        -          (2,231)    -100%
Other Financing Sources
  Transfers-In/Out Without Reimbursement                                15,949               3,153      406%
  Imputed Financing from Costs Absorbed by Others                       40,346              47,544      -15%
Total                                                           $ 1,274,597           $ 1,246,646        2%



                                Table 2. How ATF Resources are Spent
                                         (Dollars in Thousands)


                       Strategic Goal (SG)                          FY 2012           FY 2011        Change%
  SG 1: Prevent Terrorism and Promote the Nation's Security
  Consistent with the Rule of Law

                                                    Net Cost $           6,419 $           5,649       14%
  SG 2: Prevent Crime, Protect the Rights of the American
  People, and Enforce Federal Law
                                                  Gross Cost         1,278,676          1,268,049
                                        Less: Earned Revenue            81,369            91,300

                                                    Net Cost         1,197,307          1,176,749      2%


                                            Total Gross Cost         1,285,095          1,273,698
                                   Less: Total Earned Revenue           81,369            91,300

                               Total Net Costs of Operations $ 1,203,726             $ 1,182,398       2%




                                                -8-
2012 Financial Highlights

ATF activities primarily support the Department’s goal to Prevent Crime, Protect the Rights of the
American People, and Enforce Federal Law. However, many of our core activities, including ATF
participation on task forces to prevent terrorism, also support the Department’s goal to Prevent
Terrorism and Promote the Nation's Security Consistent with the Rule of Law.

Strategic Goal 1: Prevent Terrorism and Promote the Nation's Security Consistent with the
Rule of Law, 0.5 percent of ATF’s net costs support this Goal, which includes ATF activity in the
Joint Terrorism Task Force and the Terrorist Device Analysis Center. The Goal 1 net costs for
FY 2012 and FY 2011 were $6.4 million and $5.6 million, respectively, an increase of $.8 million or
approximately 13.6 percent.

Strategic Goal 2: Prevent Crime, Protect the Rights of the American People, and Enforce
Federal Law, 99.5 percent of ATF’s net costs support this Goal, which includes all ATF activities
except those reported in Strategic Goal 1. The Goal 2 net costs for FY 2012 and FY 2011 were
$1,197.3 million and $1,176.7 million, respectively, an increase of approximately 1.8 percent. This
increase is not material in nature.

PERFORMANCE INFORMATION

Data Reliability And Validity

ATF views data reliability and validity as critically important in the planning and assessment of
performance. As such, this document includes a discussion of data validation, verification, and any
identified data limitations for each performance measure presented. ATF ensures that data reported
meets the following criteria:

      At a minimum, performance data are considered reliable if transactions and other data that support
      reported performance measures are properly recorded, processed, and summarized to permit the
      preparation of performance information in accordance with criteria stated by management.
      Performance data need not be perfect to be reliable, particularly if the cost and effort to secure the best
      performance data possible will exceed the value of any data so obtained.




                                                    -9-
ATF Performance Measurement Discussion:

ATF has developed a Performance Index to link core functions to strategic goals and measure
performance. ATF’s outcome-based performance goal statements are shown below:

               Core Function                      Performance Goal Statement
              Illegal Firearms           Reduce the risk to public safety caused by illegal
                 Trafficking                           firearms trafficking
            Firearms Criminal           Reduce the risk to public safety caused by criminal
            Possession and Use                   possession and use of firearms
                                       Improve public safety by increasing compliance with
             Firearms Industry
                                         Federal laws and regulations by firearms industry
                 Operations
                                                             members
           Criminal Groups and          Reduce the risk to public safety caused by criminal
                 Gangs                               organizations and gangs
          Explosives, Bombs, and       Reduce the risk to public safety caused by bombs and
                Bombings                                    explosives
                                       Improve public safety by increasing compliance with
            Explosives Industry
                                        Federal laws and regulations by explosives industry
               Operations
                                                            members
                                      Reduce the risk to public safety caused by the criminal
              Fire and Arson
                                                            use of fire
                                      Reduce the loss of tax revenues caused by contraband
           Alcohol and Tobacco
                                                alcohol and tobacco trafficking
                                          Modernize business processes and systems for
               Modernization
                                         improved mission effectiveness and transparency
                                        Attract, develop, and retain an expert workforce to
                 Workforce
                                                     execute the ATF mission

Each performance goal statement aligns with strategic objectives and corresponding performance
indicators. ATF has established a target for each performance indicator in the Index based on historic
performance and ATF’s current or anticipated operating environment. Performance indicators are
assigned weights based on their effectiveness in meeting objectives. The weight of each strategic
objective is the sum of the weights of the performance indicators that comprise it. The performance
goal statements are weighted based on budget decision unit (e.g., the impact of interdicting and
preventing illegal firearms trafficking on ATF’s firearms program decision unit), and ATF’s current
capabilities in the area of the performance goal statement. Weights are assigned to ATF’s budget
decision units (firearms, arson and explosives, and alcohol and tobacco) in accordance with
established Congressional reprogramming thresholds among these mission areas. A more detailed
explanation of ATF’s Performance Index can be found in ATF’s Strategic Plan or Congressional
Budget Request at http://atf.gov/publications/general/strategic-plan/. ATF’s Internet site contains
supporting documentation and reference materials on ATF programs (http://www.atf.gov).



                                               - 10 -
FY 2012 REPORT ON SELECTED RESULTS

STRATEGIC GOAL 2: Prevent Crime, Protect the Rights of the American People, and Enforce
Federal Law, 99.5% of ATF’s Net Costs support this goal.

PROGRAMS: Illegal Firearms Trafficking; Firearms Criminal Possession and Use; Criminal
Groups and Gangs; Firearms Industry Operations

Background/Program Objectives: Violent firearms crime remains a significant and complex
domestic problem, fueled by a variety of causes that vary from region to region. The common
element, however, is the relationship between firearms violence and the unlawful diversion of firearms
out of commerce into the hands of prohibited persons. ATF’s unique statutory responsibilities and
assets, including technology and information, are focused under the agency’s Integrated Violence
Reduction Strategy (IVRS) to remove violent offenders, including gang members, from our
communities; keep firearms from those who are prohibited by law from possessing them; discourage,
prohibit, and interrupt illegal weapons transfers in accordance with the law; and prevent firearms
violence through community outreach.

Our firearms trafficking interdiction strategy complements our continued focus on the deployment of
resources to specific localities where there is a high incidence of gang and gun violence. Through
firearms trafficking interdiction efforts, ATF decreases the availability of illicit firearms and
recommends for prosecution those who illegally supply firearms to prohibited possessors. Violent
gang members are often involved in firearms trafficking, both for potential profit and in furtherance of
drug trafficking and other crimes. The violence fueled by firearms trafficking is demonstrated in the
crisis on our Southwest Border. Recent trends have shown an increase in the number of firearms
recovered in Mexico, and these firearms fuel the growing violence along the border, including the
brutal murders of hundreds of law enforcement officers and government officials. ATF’s efforts to
reduce violent firearms crime include:

   •	 Implementing the ATF Southwest Border initiative which is a focused subset of ATF’s broader
      firearms trafficking initiative, addressing U.S. based firearms trafficking that is fueling the
      violence along the Southwest Border and nationwide. The tracking of firearms attacks the
      prevalence of illegal firearms available in the Southwest Border region and stems the flow of
      firearms to criminal organizations in Mexico. Additionally, ATF enhances its efforts along the
      Southwest Border with an integrated violent crime and gang reduction program with initiatives
      like the Violent Crime Impact Teams and Regional Area Gang Enforcement Teams.

   •	 Partnering with law enforcement agencies and prosecutors at all levels to develop focused
      strategies to investigate, arrest, and prosecute violent offenders, persons prohibited from
      possessing firearms, domestic and international firearms traffickers, violent gangs, and others
      who attempt to illegally acquire or misuse firearms.

   •	 Assisting the law enforcement community in identifying firearms trafficking trends and
      resolving violent crimes by providing automated firearms ballistics technology, tracing guns
      used in crimes, and developing advanced firearms investigative techniques.




                                               - 11 -
   •	 Ensuring that only qualified applicants who meet the eligibility requirements of the law enter
      the regulated firearms industry by employing appropriate screening procedures prior to
      licensing.

   •	 Inspecting firearms dealers to identify any illegal purchases or diversion of firearms to
      criminals and to ensure the accuracy of records used in tracing firearms. ATF ensures that
      firearms industry members comply with the Gun Control Act, the National Firearms Act, and
      the Arms Export Control Act.

   •	 Keeping restricted firearms such as machine guns out of the hands of prohibited persons by
      performing criminal records checks on applicants. ATF maintains the accuracy and integrity
      of the National Firearms Registration and Transfer Record so that the location and ownership
      of restricted firearms are kept current.

   •	 Ensuring that only firearms that are legally importable under ATF and State Department rules
      are imported into the United States and are properly marked and recorded by the importer for
      sale domestically.

   •	 Collaborating with schools, law enforcement agencies, community organizations, and the
      firearms industry to implement educational programs which help to reduce firearms violence.

   •	 Informing the public and firearms industry about ATF policies, regulations, and product safety
      and security, so that they can better comply with the law. To do so, ATF uses a variety of
      communication methods such as the Internet, trade and community publications, seminars,
      webinars, and industry meetings.

The following represent examples of ATF’s success in support of Strategic Goal 2:

   •	 In FY 2012, ATF collected approximately $21.4 million in license fees, registration fees,
      Special Occupational Tax Stamps, and National Firearms Act taxes. This amount does not
      include fines, penalties and restitutions and is net of refunds.

   •	 In FY 2012, ATF recommended 10,684 criminal cases against 17,405 defendants for
      prosecution – 1,466 of those cases involve 4,081 defendants engaged in gang related criminal
      conduct. Of the defendants recommended for prosecution, nearly 61% are previously
      convicted felons and 84% have prior arrest records.

   •	 In FY 2012, ATF arrested 8,841 defendants, obtained 10,311 indictments and had prosecutions
      that resulted in 7,160 convictions. As a result, 6,204 defendants were sentenced to prison in
      FY 2012 including 50 defendants who received life sentences and 11 who received death
      sentences.

   •	 In FY 2012, we initiated the following criminal investigations:

       o	 25,589 firearms cases, including illegal possession and firearms trafficking;




                                              - 12 -
       o	 2,784 arson and explosives cases, including bombing and attempted bombing cases; and
       o	 84 alcohol and tobacco diversion cases.

   •	 In FY 2012, ATF seized 791 firearms and 635,783 rounds of ammunition destined for the
      Southwest Border. In FY 2012, ATF arrested 229 defendants and obtained evidence that these
      defendants were accountable for 9,357 firearms believed to have been trafficked in cases
      related to the Southwest Border.

   •	 In FY 2012, ATF referred 211 cases involving 534 defendants for prosecution related to the
      Southwest Border.

   •	 In FY 2012, there were 7,804 retail dealers and pawnbrokers who held Federal Firearms
      Licenses (FFLs) along the Southwest Border in Texas, Arizona, New Mexico, and Southern
      California. In 2012, ATF inspected 4,130 or 53 percent of the FFLs in those four states.

ATF’s Internet site contains supporting documentation and reference materials on ATF programs. It
can be accessed at http://www.atf.gov.

Performance Measurement

DOJ Priority Goal (New Measure): Percentage Increase in Gang Arrests Resulting from
Coordination of Gang Investigations

       FY 2011 Baseline: 88 Arrests

       FY 2012 Target: 2% Increase

       FY 2012 Actual Performance: 16% Decrease (74 Arrests)


Data Definition: ATF’s contribution to this measure will reflect the number of gang-related cases and
arrests resulting from coordination with state and local law enforcement and supported by the Gang
Targeting, Enforcement, and Coordination Center/Operational Section Gangs (GangTECC/OSG).
ATF’s data will be derived from performance data collected for firearms-related cases and is linked to
ATF’s performance goal to “Reduce the risk to public safety caused by criminal organizations and
gangs.” Examples of ATF-specific performance indicators linked to this goal include, the numbers of
gang-related defendants referred and convicted, and the number of criminal group or gang-related
defendants in cases that have the active involvement of state and local law enforcement partners.

Data Collection and Storage: The data source is ATF’s National Field Office Case Information
System (NFOCIS), which is ATF’s integrated and centralized data management solution allowing real
time monitoring and oversight of all criminal enforcement activities in the field.

Data Validation, and Verification: ATF’s performance review process uses goal-focused, data-
driven reviews to assure that follow-up steps are taken to increase the likelihood of achieving better
outcomes and higher productivity. This same review process tracks ATF’s progress in achieving its
long-term and annual goals by showing long-term trends, along with contextual indicators and makes
clear the link between agency output targets and longer-term outcome goals. The data are
subsequently verified through ATF’s inspection process, performed internally by the Office of



                                               - 13 -
Professional Responsibility and Security Operations. The internal inspections occur on a four year
cycle and are performed at each ATF field office and division.

Data Limitations: ATF investigations are often complex and time consuming in nature, and often
span multiple years from initiation through closure. The case-related data is calculated based on the
date investigations are closed, and is therefore likely to include investigations that have spanned
previous time periods.

Discussion of FY 2012 Results:

ATF’s contribution to DOJ’s Priority Goal is 74 arrests, which is a 16 percent decrease from the
FY 2011 baseline figure of 88. However, while the number of arrests is down, the total number of
ATF cases coordinated through GangTECC has increased from 22 in FY 2011 to 108 in FY 2012.
Approximately 70 percent of these cases were initiated during the 3rd and 4th quarters of FY 2012, and
will result in arrests and referrals for prosecution during FY 2013. Inclusive of the cases coordinated
through GangTECC, in FY 2012, 1,889 gang-related and 1,500 trafficking-related defendants in ATF
cases were convicted. The following case highlights ATF’s FY 2012 efforts:

Black Rain
In September 2008 the President of the San Francisco Chapter of the Hells Angels was murdered in a
gang related incident in the Mission District of San Francisco. Pursuant to an extensive ATF
investigation, a member of the Mongols Motorcycle Club was found guilty of murder in aid of
racketeering, assault with a deadly weapon (in aid of racketeering), use of firearm during/in relation to
a crime of violence, and using a firearm causing murder during a crime of violence. The jury found
that he had murdered the President of the Hells Angels Chapter to maintain or increase his position in
the Mongols Motorcycle Club. In May 2012, he was sentenced to four (4) life terms of imprisonment.




                                                - 14 -
PROGRAMS: Explosives, Bombs, and Bombings; Explosives Industry Operations; Fire and
Arson

Background/Program Objectives: ATF is the Federal agency primarily responsible for administering
and enforcing the criminal and regulatory provisions of the Federal laws pertaining to destructive
devices (bombs), explosives, and arson. Over nearly 40 years, ATF has developed investigative
capabilities, expertise, and resources that have positioned ATF as this Nation’s definitive source for
explosives and fire investigative knowledge and assistance.

Approximately 99 percent of all bombings in the United States fall under the jurisdiction of ATF, but
ATF also responds to and plays a key role in investigating the few incidents that are classified as
“terrorist bombings.” These include incidents that are classified as domestic terrorism, such as those
perpetrated by animal rights activists. An array of specialized programs and technical services
managed and executed by a diverse and knowledgeable workforce is the foundation of ATF’s success.
These include, but are not limited to, the following:

   •	 Certified Explosives Specialist (CES) Program: The primary mission of this program is to
      protect the public through the vigorous enforcement of the Federal explosives laws; to provide
      credible explosives crime scene examinations; to lend expertise in support of security measures
      implemented at special events; and to assist ATF’s law enforcement counterparts at the
      Federal, state, local, and international levels in their efforts to investigate complex explosives-
      related incidents.

   •	 Explosives Enforcement Officers: ATF’s explosives enforcement officers (EEOs) provide
      technical assistance and support in explosives matters. EEOs have extensive experience in
      explosives and bomb disposal. Most EEOs are former military explosive ordinance disposal
      (EOD) trained, with extensive training in nuclear, biological, chemical, and conventional high
      explosive and incendiary weapons systems. EEOs render explosive devices safe and/or
      disassemble explosive and incendiary devices, prepare destructive device determinations, and
      render expert testimony in support of such determinations in state and Federal criminal court
      proceedings. Additionally, EEOs provide expert analysis and onsite investigative technical
      assistance at bombing and arson scenes and scenes where explosions of an undetermined
      nature have occurred. They play a critical role in large-scale explosives destructions.

   •	 Certified Fire Investigator (CFI) Program: The CFI Program consists of special agents who
      have undergone an extensive 2-year training program designed to educate them in the field of
      advanced fire scene examination, with emphasis on modern principles of fire dynamics. These
      agents comprise the only group of fire origin and cause specialists within the Federal sector.

       The special agent CFIs serve as ATF’s primary resource in fire-related matters. They conduct
       fire scene examinations and render origin and cause determinations on behalf of ATF; provide
       expert courtroom testimony; provide technical support and analysis to assist other special
       agents and prosecutors with court preparation, presentation of evidence, and technical
       interpretation of fire-related information; lend technical guidance in support of field arson
       investigative activities; conduct arson-related training for ATF special agents and other
       Federal, state, and local fire investigators; and conduct research and identify trends and
       patterns in fire incidents.



                                               - 15 -
   •	 National Response Team (NRT): ATF’s National Response Team was formed in 1978 to
      help meet the needs of those who respond to and investigate complex incidents. The NRT
      consists of four regional response units. Each unit can respond to an incident within 24 hours
      and is comprised of technical experts and veteran special agents having post-blast and fire
      origin and cause expertise, including CESs, CFIs, EEOs, forensic chemists, fire protection
      engineers, and electrical engineers, with forensic mapping capabilities. ATF also utilizes
      canines with accelerant and explosives detection abilities. Further complementing the team’s
      efforts are intelligence and audit support, and technical and legal advisors.

Performance Measurement

Selected Performance Goal Statement: Reduce the Risk to Public Safety Caused by Bombs and
Explosives.

FY 2010 Performance Score 93
FY 2011 Performance Score 96
FY 2012 Target Score73
FY 2012 Actual Score 89

Linked Strategic Objective:

Continually address and mitigate emerging explosives and bombing threats by developing and
implementing proactive regulatory and investigative tactics.

Linked Performance Indicators:

   •	   Number of defendants convicted, in the given fiscal year, for violations related to explosives,
        regardless of the year of referral:
            o	 FY 2010 Performance 180
            o	 FY 2011 Performance 139
            o	 FY 2012 Target           180
            o	 FY 2012 Actual           128

   •	 Number of defendants referred, in the given fiscal year, for prosecution for violations related to
      explosives:
         o	 FY 2010 Performance 351
         o	 FY 2011 Performance 401
         o	 FY 2012 Target        300
         o	 FY 2012 Actual        277

   •	 Number of explosive destructions/disposals executed in the interest of public safety:
        o	 FY 2010 Performance 293
        o	 FY 2011 Performance 247
        o	 FY 2012 Target         350
        o	 FY 2012 Actual         290




                                                - 16 -
•	 Number of explosives devices recovered:
     o	 FY 2010 Performance 325
     o	 FY 2011 Performance 446
     o	 FY 2012 Target         325
     o	 FY 2012 Actual         240

Linked Strategic Objective:

Lead the advancement of worldwide bombing and explosives expertise by conducting in-depth
research and analysis and providing high quality training in all facets of explosives storage,
detection, disruption, investigation and disposal.

Linked Performance Indicators:

•	 Number of people (ATF employees and Federal, state, local and international law
   enforcement) trained in explosives through the National Center for Explosives Training and
   Research:
      o	 FY 2010 Performance 1,259
      o	 FY 2011 Performance 1,713
      o	 FY 2012 Target         1,500
      o	 FY 2012 Actual         2,130

•	 Number of canine teams (ATF and Federal, state and local law enforcement) trained to meet
   the national odor recognition standard:
       o	 FY 2010 Performance 255
       o	 FY 2011 Performance 378
       o	 FY 2012 Target         350
       o	 FY 2012 Actual         344

Linked Strategic Objective:

Strengthen the detection, prevention, and investigation of explosives and bombing incidents
through partnerships, collaboration, and comprehensive intelligence and information sharing.

Linked Performance Indicators:

•	 Number of active Bomb and Arson Tracking System (BATS) users (individuals):
     o	 FY 2010 Performance 5,227
     o	 FY 2011 Performance 7,164
     o	 FY 2012 Target        8,000
     o	 FY 2012 Actual       10,069

•	 Number of BATS accounts (agencies):
     o	 FY 2010 Performance 954
     o	 FY 2011 Performance 1,155
     o	 FY 2012 Target       1,300
     o	 FY 2012 Actual       1,649



                                          - 17 -
Data Definitions: The sample measure reflects the outcome of ATF's investigative efforts in criminal
explosives cases, from the initial on-scene assessment and determination that a crime has been
committed, the application of technical and forensic resources in the course of the investigation, the
identification of suspects, the development/gathering of evidence sufficient to support criminal
charges, and finally, to the presentation of a criminal case suitable for prosecution to the prosecuting
attorney. The measure also factors in the impact of training and collaboration with other law
enforcement. As discussed on page 8, success in meeting a performance goal is calculated based on
weights assigned to its supporting strategic objectives and their supporting performance indicators.
Targets are established based on program priorities, historical performance and the anticipated
operating environment.

Data Collection and Storage: Data to support the measure is collected through NFOCIS.

Data Validation and Verification: See Data Validation and Verification under firearms programs
above.

Data Limitations: ATF investigations are often complex and time consuming in nature, and often
span multiple years from initiation through closure. The case-related data is calculated based on the
date investigations are closed, and is therefore likely to include investigations that have spanned
previous time periods.

Discussion of FY 2012 Results:

ATF exceeded its performance score target. The following case examples highlight ATF’s FY 2012
efforts in this area:

•	 In December 2008, a fire was reported at an apartment complex in Dallas, Texas. The fire caused
   significant damage to the complex, displacing numerous families. An origin and cause
   investigation determined the fire had been intentionally set. An ATF investigation developed
   information that an individual set the fire (and others) to obtain insurance proceeds and Red Cross
   victim assistance payments. Agents determined she was the head of an organized group of
   associates involved in starting fires for financial gain. Agents learned that she directed her
   associates on how and when to set fires, to obtain the greatest amount of victim assistance and
   insurance proceeds. She received a percentage of the monies collected. She and her associates
   were found to be responsible for starting 11 fires in the Dallas area, the final two causing nearly
   $2 million in damage and significant Red Cross expenditures. In July 2010, the grand jury in
   Dallas returned a true bill against the subject and six associates, charges ranged from arson, wire
   fraud, use of fire to commit a felony and mail fraud. Her six associates pled guilty and were given
   sentences ranging from 37-46 months imprisonment and restitution of approximately $3.8 million.
   In April 2012, she was sentenced to a 120-month term of imprisonment for wire fraud and a
   120-month term of imprisonment for arson, to be served consecutively; she was ordered to pay
   approximately $1.7 million.

•	 In May 2010, the Philadelphia Fire Department responded to a fire call at approximately 5:30 am
   at the business location owned by an individual who was outside of the country at the time of the




                                               - 18 -
   fire. An origin and cause investigation conducted by the ATF Arson Task Force indicated a “set
   fire”. A cooperator was developed pursuant to the investigation and he was engaged in multiple
   undercover contacts; search warrants were executed at the residence and new business location. In
   August 2011 a Federal complaint was issued against the suspect and he was arrested by ATF
   special agents. In March 2012, he was found guilty of an eight-count indictment (to include
   federal arson, conspiracy, mail fraud and obstruction of justice). A co-defendant was given a
   90-month term of imprisonment; the main subject faces a 15-year minimum sentence in
   November 2012.

•	 In February 2004, a package bomb, exploded at the City of Scottsdale Arizona, Diversity &
   Dialogue Office. The package had been addressed to the Director of the office. He and two
   employees were injured in the explosion. ATF, the United States Postal Service and the Scottsdale
   Police Department initiated an investigation. Agents assigned to ATF subsequently developed two
   suspects, brothers, who were identified as white supremacists, affiliated with the White Aryan
   Resistance (WAR). Pursuant to a 5-year investigation involving numerous undercover meetings in
   Arizona, Illinois, Missouri and Oklahoma, wire intercepts and search warrants, the brothers were
   arrested on multiple charges, including conspiracy to damage a building by means of explosives,
   damaging a building by means of explosives and teaching to make or use an explosive or
   destructive device. In January 2012, one brother was found guilty of all three charges, he was
   subsequently sentenced to concurrent 40 year sentences; the other brother was found not guilty.




                                             - 19 -
ANALYSIS OF SYSTEMS, CONTROLS, AND LEGAL COMPLIANCE
Federal Managers' Financial Integrity Act of 1982
The Federal Managers' Financial Integrity Act of 1982 (Integrity Act or FMFIA) provides the
statutory basis for management's responsibility for and assessment of internal accounting and
administrative controls. Such controls include program, operational, and administrative areas, as well
as accounting and financial management. The Integrity Act requires Federal agencies to establish
controls that reasonably ensure obligations and costs are in compliance with applicable law; funds,
property, and other assets are safeguarded against waste, loss, unauthorized use, or misappropriation;
and revenues and expenditures are properly recorded and accounted for to maintain accountability
over the assets. The Integrity Act also requires agencies to annually assess and report on the internal
controls that protect the integrity of Federal programs (FMFIA § 2) and whether financial management
systems conform to related requirements (FMFIA § 4).

Guidance for implementing the Integrity Act is provided through OMB Circular A-123,
Management’s Responsibility for Internal Control. In addition to requiring agencies to provide an
assurance statement on the effectiveness of programmatic internal controls and conformance with
financial systems requirements, the Circular requires agencies to provide an assurance statement on
the effectiveness of internal control over financial reporting. The Department requires components to
provide both of the assurance statements in order to have the information necessary to prepare the
agency assurance statements.

FMFIA Assurance Statement
ATF’s Acting Director provided reasonable assurance that internal controls and financial systems met
the objectives of Section 2 and 4 of the FMFIA and complies with the requirements of the Federal
Financial Management Improvement Act (FFMIA).

ATF management has established and maintained effective internal control and financial management
systems that meet the objectives of FMFIA. ATF assessed its internal control over the effectiveness
and efficiency of operations and compliance with applicable laws and regulations in accordance with
OMB Circular A-123, as required by Section 2 of the FMFIA. Based on the results of this assessment,
ATF provides reasonable assurance, as of September 30, 2012, that its internal control over the
effectiveness and efficiency of operations and compliance with applicable laws and regulations is
operating effectively.

In accordance with Appendix A of OMB Circular A-123, ATF management conducted its assessment
of the effectiveness of internal control over financial reporting, which included the safeguarding of
assets and compliance with applicable laws and regulations. Based on the results of the assessment,
ATF management can provide reasonable assurance that the ATF’s internal control over financial
reporting was operating effectively as of September 30, 2012, and the assessment identified no
material weaknesses in the design or operation of the controls.

An update to the Appendix A assurance statement based on the results of third quarter testing
performed as part of the CFO audit and OMB Circular A-123, identified issues in ATF’s financial



                                              - 20 -
reporting of cash, monetary instruments and other property seized for evidence processes.
Management considers these deficiencies to be a reportable condition. ATF developed a Corrective
Action Plan (CAP) to strengthen internal controls and oversight in the following areas:

       •	 Improve existing policies and procedures to ensure the timely and accurate updating of
          property status in N-Force and agent responsibility to submit seized evidence currency to
          headquarters within five (5) business days of seizure.
       •	 Develop standard operating procedures (SOP) for the movement of currency seized for
          evidence and the calculation of seized amounts to be recorded in the financial statements.
       •	 Provide refresher agent training on seized property inventory and reconciliation procedures
          to ensure that they encompass validation of all property items in N-Force with status codes
          “in ATF’s custody”, “Release Requested”, “Release Pending”, “Destruction Requested”
          and “Destruction Pending”.
       •	 Perform a complete book to floor and floor to book inventory with immediate
          reconciliation of differences.

ATF also assessed whether its financial management systems conform to government-wide
requirements. Based on the results of this assessment, ATF provides reasonable assurance that there
are no non-conformances that are required to be reported by Section 4 of the FMFIA. The testing did
identify some deficiencies but the risks to the financial statements presented by these deficiencies were
minimal and/or complementary or redundant controls evaluated achieved the same results.

ATF implements compensating controls to eliminate deficiencies and continues to identify system
vulnerabilities and recommend security solutions to maintain systems at a reasonable assurance level.
ATF bases this assertion on the following information sources:

       •	      Internal control assessments including tests of key financial reporting controls;
       •	      Management knowledge and experience gained from daily oversight of component
               programs, accounting systems, and administrative controls;
       •	      Program audit reports;
       •	      Financial statement audit reports;
       •	      Financial management system evaluations and reports pursuant to OMB Circular A­
               127, Financial Management Systems;
       •	      Evaluations and reports pursuant to the Federal Information Security Management Act
               (FISMA) and OMB Circular A-130, Management of Federal Information Resources;
       •	      Management reviews;
       •	      Internal reviews and investigations;
       •	      Office of the Inspector General (OIG) reports and GAO reports;
       •	      Performance plans and reports; and
       •	      Statements of Assurance from each directorate head.

ATF’s accomplishments demonstrate the Bureau’s continued commitment to supporting a complex
law enforcement mission of preventing terrorism, reducing violent crime, and protecting our Nation.




                                               - 21 -
There is “reasonable assurance” that the financial system for ATF is in conformance with government-
wide financial information standards and financial system functional standards under Section 4 of
FMFIA for FY 2012.

This statement of assurance is based on the Unified Financial Management System (UFMS) which is
the Bureau's core financial system for both revenue and administrative accounting, and assessments of
all associated financial system modules. Based on the current management, operational, and technical
controls in place, we have reasonable assurance that our financial and administrative systems have no
material issues as they relate to Section 4 of FMFIA and are “compliant” with the FFMIA.

Some additional accomplishments related to Section 4 of FMFIA are as follows:

   •	 ATF has consistently closed its books within three work days following an accounting period.

   •	 ATF also utilizes an internal management tool for preparing accounting reconciliations and
      reporting financial information. To validate that procedures and policies are being followed,
      the tool monitors and manages budgeting and accounting activity and ensures that data in
      UFMS is current and accurate.

ATF controls that fulfill the Prompt Payment Act requirements include date stamping invoices by
individuals not involved in the payment process; performing quality and validity reviews of each
invoice; encouraging program offices to be prompt in entering receipts for goods and services into the
financial system; and using management reporting tools to track outstanding invoices in the financial
system to prevent late payments and associated interest penalties.

With respect to internal accounting control, ATF management identifies, designs, operates, maintains,
and monitors an appropriate system of internal controls to enable the Bureau to accurately report its
financial information to DOJ and meet the requirements of OMB Circular A-123, Appendix A and
FFMIA.

In accordance with DOJ’s OMB Circular A-123 Implementation Plan, the Department’s Senior
Assessment Team identified the business processes significant at the Departmental level and the DOJ
components comprising a significant share of those processes. As required by the Department’s
FY 2012 Guidance for Implementation of OMB Circular A-123, we have documented the following
significant business processes and tested key controls for each:

       •	   Information Systems;
       •	   Budget/Funds Management;
       •	   Financial Reporting;
       •	   Property;
       •	   Procurement;
       •	   Seized and Forfeited Property and Currency; and
       •	   Churning and Agent Cashier.




                                              - 22 -
In addition, as also required by DOJ’s FY 2012 Guidance for Implementation of OMB Circular
A-123, ATF has tested key controls over sensitive payments related to:

       •   Travel Expenditures, including Premium Class and Executive Travel;
       •   Transit Subsidies; and
       •   Conference Expenditures.

The results of testing identified design or operational deficiencies in the above areas in ATF’s internal
controls over financial reporting as of September 30, 2012. However, these deficiencies are not
considered to be reportable conditions. Management developed CAPs in each area to address
deficiencies with plans to complete all milestones before the end of FY 2013.

Federal Financial Management Improvement Act of 1996
The FFMIA was designed to improve Federal financial and program managers' accountability, provide
better information for decision-making, and improve the efficiency and effectiveness of Federal
programs. FFMIA requires agencies to have financial management systems that substantially comply
with Federal financial management systems requirements, applicable Federal accounting standards,
and the U.S. Standard General Ledger (USSGL) at the transaction level. Furthermore, the Act
requires independent auditors to report on agency compliance with the three requirements in the
financial statement audit report. FISMA states that to be substantially compliant with FFMIA, there
are to be no significant deficiencies in information security policies, procedures, or practices.

FFMIA Compliance Determination
During FY 2012, ATF assessed its financial management systems for compliance with FFMIA and
determined that they substantially comply with FFMIA. This determination is based on the results of
FISMA reviews and testing performed for OMB Circular A-123, Appendix A. Consideration was also
given to any issues identified during the ATF’s financial statement audit.

POSSIBLE FUTURE EFFECTS OF EXISTING EVENTS AND CONDITIONS

ATF has aligned its priorities to the current priorities of the President and the Nation to fight terrorism
and to make our people and our communities safe from violence. Firearms and explosives are the
primary tools of terrorism; ATF continues to regulate their legitimate use and enforce laws against
criminal misuse. The illegal importation and trafficking of these terrorist tools continue to be
disrupted through our investigations and regulatory efforts. Because our communities continue to
struggle against the violence of criminals and gangs, ATF’s initiatives and partnerships with other law
enforcement organizations are critical components in the fight to protect the American people from
violent firearms crime. ATF’s partnership strategies with all of the U.S. Attorney’s offices, including
those in locations that currently do not have a full time Project Safe Neighborhood (PSN) resource,
increase the effectiveness of efforts to target gangs and violent crime.

On August 29, 2011 the Office of Personnel Management (OPM) approved ATF’s request to
implement the Voluntary Early Retirement Authority (VERA) and Voluntary Separation Incentive
Payment (VSIP) options. ATF requested this authority in order to address imbalances in our grade



                                                 - 23 -
structure and supervisor-to-employee ratios, to improve the ratio of Headquarters support positions to
mission-focused field positions, and to drive the attrition necessary to position the Bureau to meet the
challenges anticipated in the FY 2012 and FY 2013 budgets.

ATF established the initial VERA/VSIP application window of September 12 to October 14, 2011,
during which time eligible employees could apply for the VERA/VSIP incentives. A total of
164 employees submitted retirement actions utilizing these incentives and all 164 separated from the
Bureau by the November 30, 2011 deadline.

ATF continues to evaluate the impact of the departure of these employees in terms of both the goals of
the VERA/VSIP program and the impact on ATF’s expertise and overall capabilities.

The potential threat to public safety from criminal or terrorist theft and misuse of explosives cannot be
overstated. Because of the extremely high and unacceptable risk, more comprehensive enforcement
and regulatory efforts are essential to ensure the safe and secure storage of explosive materials. ATF’s
responsibility for public safety requires us to investigate all reported thefts of explosives and conduct
comprehensive inspections of all explosives licensees triennially. ATF continues to work with the
explosive industry manufacturers, importers, distributors, and users, as well as their associations, to
improve the security, safe handling, and storage of these materials.

The following are examples of issues that have the potential to affect ATF operations in multiple
regions:

   •	 As gangs spread out across the United States, they may be moving to areas where ATF does
      not have a physical presence (e.g., increased violence on the Southwest Border that spills over
      into the United States from Mexico).

   •	 In terms of workforce availability, cities that are experiencing dramatic increases in the cost of
      living will have difficulty providing rapid responses to emergency situations as personnel must
      travel long distances from residences; in addition, it may be difficult to retain qualified
      personnel in these areas.

   •	 The potential closure of additional military bases, as well as large companies and industries
      that employ thousands of people in particular geographic areas, may cause crime to increase.

   •	 Similarly, natural disasters such as hurricanes, floods and wildfires will present economic
      challenges and the potential for an increase in crime.

   •	 Localities that are dealing with economic downturns and are having difficulty funding
      government services (e.g., police forces) will impact ATF operations, as local governments
      may not be able to provide officers to participate in ATF task forces.

   •	 An economic downturn may lead to a rise in arson fires.

   •	 Changes in state laws and changes in taxes have the potential to affect trafficking patterns (e.g.,
      firearms, alcohol and tobacco).




                                                - 24 -
  •	 Several areas have expressed concern about the potential for violent acts by extremist

     environmental groups and organizations. 


  •	 Along with other agencies, ATF has contingency plans in place to continue operating if its own
     facilities and personnel are directly affected or threatened by terrorist acts. However, any such
     threats may have a negative impact on the Bureau’s ability to address other forms of violence.

  •	 Firearms manufacturers and distributors are reporting record high sales. The influx of firearms
     into commerce or into the hands of the general public may impact ATF.

IMPROPER PAYMENTS ELIMINATION AND RECOVERY ACT (IPERA)
REPORTING

  In accordance with OMB Circular A-123, Appendix C, Requirements for Effective Measurement
  and Remediation of Improper Payments, and the Departmental guidance for implementing the
  Improper Payments Elimination and Recovery Act (IPERA), the Department implemented a top-
  down approach to assess the risk of significant improper payments across all five of the
  Department’s mission-aligned programs, and to identify and recapture improper payments through
  a payment recapture audit program. The approach promotes consistency across the Department
  and enhances internal control related to preventing, detecting, and recovering improper payments.
  Because of the OMB requirement to assess risk and report payment recapture audit activities by
  agency programs, the results of the Department’s risk assessment and recapture activities are
  reported at the Department-level only.

  In accordance with the Departmental approach for implementing IPERA, ATF assessed its
  activities for susceptibility to significant improper payments. ATF also conducted its payment
  recapture audit program in accordance with the Departmental approach. ATF provided the results
  of both the risk assessment and payment recapture audit activities to the Department for the
  Department-level reporting in the FY 2012 Performance and Accountability Report.

LIMITATIONS OF THE FINANCIAL STATEMENTS

  •	 The financial statements have been prepared to report the financial position and results of
     operations of ATF, pursuant to the requirements of 31 U.S.C. 3515(b).

  •	 While the statements have been prepared from the books and records of ATF in accordance
     with accounting principles generally accepted in the United States of America for Federal
     entities and the formats prescribed by OMB, the statements are in addition to the financial
     reports used to monitor and control budgetary resources which are prepared from the same
     books and records.

  •	 The statements should be read with the realization that they are for a component of the U.S.
     Government, a sovereign entity.




                                             - 25 -
This page intentionally left blank. 





                - 26 -
Independent Auditors’ Reports





          - 27 -
This page intentionally left blank. 





                - 28 -
                               INDEPENDENT AUDITORS’ REPORT ON FINANCIAL STATEMENTS


Inspector General
United States Department of Justice


Acting Director
Bureau of Alcohol, Tobacco, Firearms and Explosives
United States Department of Justice


We have audited the accompanying Consolidated Balance Sheets of the Bureau of Alcohol, Tobacco, Firearms and
Explosives (ATF), a component of the United States Department of Justice, as of September 30, 2012 and 2011, and
the related Consolidated Statements of Net Cost, Consolidated Statements of Changes in Net Position, Combined
Statements of Budgetary Resources, and Combined Statements of Custodial Activity for the years then ended.
These financial statements are the responsibility of ATF’s management. Our responsibility is to express an opinion
on these financial statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued by the
Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin No. 07-04, Audit
Requirements for Federal Financial Statements, as amended. Those standards and OMB Bulletin No. 07-04 require
that we plan and perform the audits to obtain reasonable assurance about whether the financial statements are
free of material misstatement. An audit includes consideration of internal control over financial reporting as a
basis for designing audit procedures that are appropriate in the circumstances, but not for the purpose of
expressing an opinion on the effectiveness of ATF’s internal control over financial reporting. Accordingly, we
express no such opinion. An audit includes examining, on a test basis, evidence supporting the amounts and
disclosures in the financial statements. An audit also includes assessing the accounting principles used, and
significant estimates made by management, as well as evaluating the overall financial statement presentation. We
believe that our audits provide a reasonable basis for our opinion.

In our opinion, the financial statements referred to above present fairly, in all material respects, the consolidated
financial position of the United States Department of Justice, Bureau of Alcohol, Tobacco, Firearms and Explosives
as of September 30, 2012 and 2011, and its consolidated net costs, consolidated changes in net position, combined
budgetary resources, and combined custodial activity for the years then ended, in conformity with accounting
principles generally accepted in the United States of America.

Accounting principles generally accepted in the United States of America and OMB Circular No. A-136, Financial
Reporting Requirements, require that the Management’s Discussion and Analysis and the Combining Statements of
Budgetary Resources be presented to supplement the basic financial statements. Such information, although not a
part of the basic financial statements, is required by the Federal Accounting Standards Advisory Board and OMB,
who consider it to be an essential part of financial reporting for placing the basic financial statements in an
appropriate operational, economic, or historical context. We have applied certain limited procedures to the




                                                      - 29 -
required supplementary information in accordance with auditing standards generally accepted in the United States
of America, which consisted of inquiries of management about the methods of preparing the information and
comparing the information for consistency with management’s responses to our inquiries, the basic financial
statements, and other knowledge we obtained during our audit of the basic financial statements. We do not
express an opinion or provide any assurance on the information because the limited procedures do not provide us
with sufficient evidence to express an opinion or provide any assurance.

Our audits were conducted for the purpose of forming opinions on ATF’s basic financial statements taken as a
whole. The Schedule of Spending is presented for the purpose of additional analysis and is not a required part of
the basic financial statements. Such information has not been subjected to the auditing procedures applied in the
audit of the basic financial statements, and accordingly, we do not express an opinion or provide any assurance on
it.

In accordance with Government Auditing Standards, we have also issued our reports dated November 5, 2012, on
our consideration of ATF’s internal control over financial reporting and on our tests of its compliance with certain
provisions of applicable laws and regulations. The purpose of those reports is to describe the scope of our testing
of internal control over financial reporting and compliance and the results of that testing, and not to provide an
opinion on the internal control over financial reporting or on compliance. Those reports are an integral part of an
audit performed in accordance with Government Auditing Standards and should be read in conjunction with this
report in assessing the results of our audits.


COTTON & COMPANY LLP




Catherine L. Nocera, CPA, CISA
Partner

November 5, 2012
Alexandria, Virginia




                                                      - 30 -
                     INDEPENDENT AUDITORS’ REPORT ON INTERNAL CONTROL OVER FINANCIAL REPORTING


Inspector General
United States Department of Justice

Acting Director
Bureau of Alcohol, Tobacco, Firearms and Explosives
United States Department of Justice

We have audited the Consolidated Balance Sheets of the Bureau of Alcohol, Tobacco, Firearms and Explosives
(ATF), a component of the United States Department of Justice (DOJ), as of September 30, 2012 and 2011, and the
related Consolidated Statements of Net Cost, Consolidated Statements of Changes in Net Position, Combined
Statements of Budgetary Resources, and Combined Statements of Custodial Activity for the years then ended, and
have issued our report thereon dated November 5, 2012. We conducted our audits in accordance with auditing
standards generally accepted in the United States of America; standards applicable to financial audits contained in
Government Auditing Standards, issued by the Comptroller General of the United States; and Office of
Management and Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as
amended.

ATF’s management is responsible for establishing and maintaining effective internal control over financial
reporting. In planning and performing our fiscal year 2012 audit, we considered ATF’s internal control over
financial reporting as a basis for designing our auditing procedures for the purpose of expressing our opinion on
the financial statements, but not for the purpose of expressing an opinion on the effectiveness of ATF’s internal
control over financial reporting. Accordingly, we do not express an opinion on the effectiveness of ATF’s internal
control over financial reporting or on management’s assertion on internal control included in Management’s
Discussion and Analysis. We limited our internal control testing to only those controls necessary to achieve the
objectives described in Government Auditing Standards and OMB Bulletin No. 07-04. We did not test all internal
controls relevant to operating objectives as broadly defined by the Federal Managers’ Financial Integrity Act of
1982, such as controls relevant to ensuring efficient operations.

A deficiency in internal control exists when the design or operation of a control does not allow management or
employees, in the normal course of performing their assigned functions, to prevent, or detect and correct
misstatements on a timely basis. A material weakness is a deficiency, or combination of deficiencies in internal
control, such that there is a reasonable possibility that a material misstatement of the entity’s financial statements
will not be prevented, or detected and corrected on a timely basis.

Our consideration of internal control over financial reporting was for the limited purpose described in the second
paragraph and was not designed to identify all deficiencies in internal control over financial reporting that might
be deficiencies, significant deficiencies, or material weaknesses. We did not identify any deficiencies in internal
control over financial reporting that we consider to be material weaknesses, as defined above. However, we
identified certain deficiencies in internal control over financial reporting, described below, that, when combined,
we consider to be a significant deficiency in internal control over financial reporting. A significant deficiency is a




                                                       - 31 -
deficiency, or combination of deficiencies, in internal control that is less severe than a material weakness, yet
important enough to merit the attention by those charged with governance.

ATF’s response to the finding identified in our audit is included after each recommendation. We did not audit
ATF’s response and, accordingly, we express no opinion on it.

FINANCIAL REPORTING CONTROLS NEED IMPROVEMENT (SIGNIFICANT DEFICIENCY) (NEW)

ATF’s internal control over financial reporting needs improvement to ensure that amounts reported in its financial
statements are valid, accurate, and complete. We identified errors and misstatements related to Cash, Monetary
Instruments, and Other Property Seized for Evidence, and Year-End Unfilled Customer Order Balances, as discussed
below.

CASH, MONETARY INSTRUMENTS, AND OTHER PROPERTY SEIZED FOR EVIDENCE
ATF’s internal controls to ensure the accuracy, completeness, and reasonableness of its accounting for cash and
monetary instruments (referred to as currency) and other property seized for evidence (non-valued firearms and
vehicles) need improvement. ATF reports currency seized for evidence as Cash and Monetary Assets, along with a
related liability. ATF also discloses information about currency, personal property with a value equal to, or
exceeding $1,000, and non-valued firearms seized for evidence in its financial statement footnotes. We noted the
following control deficiencies:

ATF’s Financial Reporting of Property Seized for Evidence Contained Errors
ATF’s process for identifying and quantifying seized property balances is manual and subject to error. ATF uses the
following to record seized currency balances and to prepare footnote disclosures:

•	   extracts from N-Force (N-Force Working Property Footnote Query reports [N-Force Query reports]);
•	   seized currency records maintained by the Asset Forfeiture and Seized Property Division (AFSPD); and
•	   the bank reconciliation for currency held in a Bank of America seized currency account.
ATF uses a suite of case and inspection management applications known as the National Field Office Case
Information System (NFOCIS), which contains information on property seized for evidence. The Office of Strategic
Intelligence and Information Systems (OSII) is responsible for maintaining NFOCIS and providing N-Force Audit
Property and N-Force Vault reports (N-Force reports) and the N-Force Query reports to users, including the
Accounting Branch.

We tested seized property balances at June 30, 2012, and determined that amounts reported were not accurate or
complete, as follows.

•	   Amounts seized for 52 cases, totaling $198,640, were recorded in N-Force as seized evidence in ATF’s custody,
     but were not included in the seized currency general ledger account balance, and therefore, were not included
     in the financial statements and footnotes.
•	   Amounts seized for 13 cases were duplicated in the Accounting Branch’s calculation of the seized currency
     balance (e.g., amounts that were in Headquarters’ possession were also counted as seized currency held in the
     field), resulting in an overstatement of $42,038 in the seized currency general ledger account balance.
•	   ATF’s N-Force Query reports used to record seized currency account balances and financial statements
     disclosures are not complete. We compared the N-Force Query reports with the N-Force Audit Property
     reports for the five Property Status Descriptions (“In ATF Custody”, “Release Requested”, “Release Pending”,
     “Destruction Requested”, and “Destruction Pending”) that should be included on the financial statements.
     We identified 94 currency items and 638 firearms that were included in the N-Force Audit Property reports
     but excluded from the N-Force Query report.




                                                       - 32 -
•	   ATF is not accurately calculating its current-year activity for non-valued firearms (seizures, disposals, and
     adjustments). We reviewed the Accounting Branch’s methodology for calculating current-year activity and
     noted that 2,045 items on the N-Force Audit Property reports were not properly reported as current year
     activity in the financial statement footnote for one of the following reasons:

         •	   The item was not seized during the current fiscal year, but changed from a status excluded from the
              footnote to a status included in the footnote during the current fiscal year;
         •	   The item was both seized and disposed of during the current fiscal year; or
         •	   The item was included on the FY 2012 N-Force Audit Property report but was not included on the FY
              2011 N-Force Audit Property report, even though the ”ATF custody date” was prior to FY 2012.


Seized Evidence Bank Account Procedures Need Improvement
We identified discrepancies in ATF’s reconciliation of its Bank of America seized currency account at June 30, 2012.
In addition to reviewing the reconciliation, we tested five receipts and five payments recorded in FY 2012. We
noted that:

•	   ATF did not record six checks written on the seized currency bank account in May 2012 to its check register
     until July. As a result, ATF’s general ledger balance for seized currency was overstated by $3,802 at June 30.
•	   ATF’s policy requires that field offices convert seized currency into a cashier’s check and remit the check to
     Headquarters within five working days to ensure the proper safeguarding of seized currency. However, one
     field division did not convert $11,068 from multiple seizures during the period August 2010 through
     November 2011 to a cashier’s check, and submit it to Headquarters until February 23, 2012.
•	   ATF recorded an incorrect payee in its check register for one of the payments tested, resulting in an
     inadequate audit trail for the case.


N-Force Reports Are Not Complete and Accurate
We noted the following issues indicating that the N-Force reports and the N-Force Query reports are not accurate,
complete, and reliable:

•	   During our review of the N-Force Audit Property reports and the N-Force Query reports supporting ATF’s June
     30, 2012 financial statement balance and disclosures for seized currency, we identified the following currency
     items that had incorrect property status information in N-Force. Although the currency items were properly
     reported on ATF’s financial statements and footnote disclosures, these conditions indicate that N-Force
     reports are not accurate and complete.

         •	   Amounts seized for 107 cases had been disposed of prior to June 30, but had a property status of
              “Release Pending” or “In ATF Custody” in N-Force as of June 30, 2012. ATF attributed most of these
              discrepancies to actions that the field offices had not taken to update the property status of these
              items on N-Force.
         •	   Amounts seized for 13 cases that are currently held in ATF’s Bank of America seized currency account,
              but were recorded in N-Force with a property status of “Released” or “Destroyed”. The case agents
              erroneously changed the property status when they submitted the seized amounts to Headquarters.
         •	   Amounts seized for 216 cases that are currently held in ATF’s Bank of America seized currency
              account contained a vault status of “Checked Out” or “Disposed”. These amounts should have been
              “Checked In” to Headquarters N-Force Vault to ensure proper accountability for, and safeguarding of,
              the seized items.




                                                      - 33 -
•	   We tested a sample of 48 property items from the March 31, 2012, N-Force Query reports. Two of the sample
     items did not have accurate property status information in N-Force, as follows:

         •	   One firearm had been destroyed on April 28, 2011, but was categorized in N-Force as “Destruction
              Pending” as of March 31, 2012, and therefore was still included in the ending non-valued firearms
              balance. The field office stated that it had prepared a Report of Destruction but could not find the
              document.
         •	   One firearm had been transferred to the Martinsburg firearm library in August 2008, but was
              categorized in N-Force as “Release Requested” as of March 31, 2012 and therefore was still included
              in the non-valued firearms ending balance. The field office stated that it submitted a Release and
              Receipt of Property form to the Firearms Technology Branch for signature, but the field office did not
              receive the signed copy for entry in N-Force.


•	   During our review of the March 31, 2012 N-Force Audit Property report for vehicles, we identified the
     following three vehicles that did not have accurate property status information in N-Force. The vehicles were
     categorized in N-Force as “Destruction Pending” or “Release Pending” as of March 31, 2012 but had been
     disposed of prior to that date. These vehicles were properly excluded from ATF’s footnote disclosures, but are
     further evidence that N-Force reports are inaccurate.

         •	   An Express Van disposed of on January 24, 2008.
         •	   An Astro Van disposed of on June 19, 2004.
         •	   A Crown Victoria disposed of on June 19, 2004.

ATF Inventories of Currency and Other Property Seized for Evidence Need Improvement
ATF conducts annual inventories of currency and other property seized for evidence; however, the inventory
procedures are not sufficient to ensure that N-Force data is complete, accurate, and reliable. We noted the
following:

•	   ATF’s inventory procedures only include items that are included in N-Force Vault reports, and do not include
     items that have been checked out of vaults for various reasons, such as checked out to a lab.
•	   ATF’s inventory procedures are not sufficient to ensure the physical existence and accuracy of N-Force data for
     vehicles, which are not included in N-Force Vault reports.
•	   ATF’s inventory procedures do not include a reconciliation between all items included in N-Force reports with
     property status codes “In ATF Custody”, “Release Requested”, “Release Pending”, “Destruction Requested”,
     and “Destruction Pending”, which should be reported in the financial statements or footnote disclosures, and
     those items that are in the N-Force Vault reports.
•	   ATF only performs an inventory of currency once a year. Best practices would require a more frequent
     inventory because these items are highly susceptible to loss or misappropriation.
•	   ATF does not perform a reconciliation or inventory of seized currency deposited into the Bank of America
     seized currency account (the seized evidence list), amounts held in Headquarters’ vault, and amounts reported
     in Headquarters’ N-Force Vault report, to ensure that the N-Force reports reflect the appropriate property
     status and vault status and that all amounts submitted to Headquarters are safeguarded.


ATF’s internal control deficiencies over currency and property seized for evidence may be because ATF does not
have documented procedures for identifying and calculating amounts that should be reported and disclosed in the
financial statements, and its current processes lack sufficient coordination between the Accounting Branch, AFSPD,
the field offices, and OSII. In addition, ATF has not dedicated sufficient resources or provided adequate oversight




                                                      - 34 -
to ensure that data in N-Force is updated timely and accurately, and validated to ensure that amounts reported
and disclosed for property seized for evidence are complete and accurate.

YEAR-END UNFILLED CUSTOMER ORDER BALANCES
ATF’s internal controls to ensure that unfilled customer order balances are accurate as of year-end need
improvement. We noted that ATF’s September 30, 2012 unfilled customer order balances were overstated by
$14.5 million, due to the following reasons:

    •	   $13.7 million in single, multi, and no-year reimbursable agreements that are maintained in fund 700R (a
         single-year fund) for which the unfilled customer order balances were not written off at year-end.
    •	   $768 thousand in estimated reimbursable payroll and credit card charges recorded on the general ledger
         as direct expenditures rather than reimbursable expenditures, because the reimbursable project code was
         not yet identified.
ATF does not have a financial reporting checklist that details all necessary year-end financial-reporting
adjustments, and does not perform an analytical procedure to help substantiate the unfilled customer order
balances at year-end.

OMB Circular A-123, Management’s Responsibility for Internal Control, states: “Management is responsible for
establishing and maintaining internal control to achieve the objectives of effective and efficient operations,
reliable financial reporting, and compliance with applicable laws and regulations.”

Statement of Federal Financial Accounting Standards (SFFAS) No. 3, Accounting for Inventory and Related Property,
Paragraph 61 states that: “Seized monetary instruments shall be recognized as seized assets when seized.”
Paragraph 62 further states that: “Seized property other than monetary instruments shall be disclosed in the
footnotes. The value of the seized property shall be accounted for in an agency’s property management records
until the property is forfeited, returned, or otherwise liquidated.”

SFFAS No. 3, Paragraph 66, requires disclosures that analyze the change in seized property, including the “number
of seized property that are (1) on hand at the beginning of the year, (2) made during the year, (3) disposed of
during the year, and (4) on hand at the end of the year…”.

In accordance with OMB Circular A-11 Section 130.9, performing agencies accounting for reimbursable agreements
using an annual Treasury Account Fund Symbol (TAFS) should not show unobligated balances on the
September 30, SF 133. However, when the ordering agency’s TAFS are multi- or no-year, the performing agency
should show the amount of unfilled customer order not obligated as new anticipated spending authority from
offsetting collections in its annual TAFS established for the next fiscal year.

RECOMMENDATIONS

We recommend that ATF:

1.	 Develop documented procedures for identifying and calculating seized amounts to be reported and disclosed
    in the financial statements. (New)

    Management Response:

    ATF concurs with the audit recommendation and will document and implement procedures for identifying and
    calculating seized amounts reported and disclosed in the financial statements and notes.




                                                     - 35 -
2.	 Improve supervisory oversight, coordination between ATF offices, and policies and procedures to ensure
    timely and accurate:
    •	   recording and reconciliation of seized currency activity;
    •	   updating of property status and vault status fields in N-Force; and
    •	   reporting of seized property current-year activity in the financial statement footnotes. (New)

    Management Response:

    ATF concurs with this recommendation and will provide training to address this in FY 2013 to improve the
    reconciliation of seized cash held in vaults process as well as the accuracy of reporting seized for
    evidence property in the financial statement footnotes.

3.	 Revise seized property inventory procedures to ensure that inventories are performed for all property items in
    N-Force with property status codes “In ATF Custody”, “Release Requested”, “Release Pending”, “Destruction
    Requested”, and “Destruction Pending”. (New)

    Management Response:

    ATF concurs with this recommendation and has revised its inventory procedures for FY 2013.

4.	 Ensure that all field offices are aware of their responsibility to submit seized currency to Headquarters within
    five days of seizure. (New)

    Management Response:

    ATF concurs with this recommendation and will provide training to the field agents to address this in FY 2013.

    ATF’s Asset Forfeiture and Seized Property Division (AFSPD) will provide training to address the control
    deficiencies related to the recording and maintenance of the seized evidence activity in N-FORCE. Training for
    Special Agents will include the following:
         •	 Processing Seized for Evidence currency;
         •	 Disposal of Seized for Evidence currency;
         •	 Sending currency to AFSPD;
         •	 N-Force entry process; and,
         •	 N-Force Vault process.

    A quick reference guide will also be made available to assist in administering seized for evidence items.

5.	 Update the financial reporting checklist to ensure that all necessary adjustments are recorded at year-end,
    and implement financial reporting review procedures, such as analytical procedures, to ensure that general
    ledger accounts have expected balances. (New)

    Management Response:

    ATF concurs with this recommendation and will address this by implementing a process to include applicable
    unfilled order accounts and analytical procedures are completed timely and accurately at year-end.


                                            *         *        *       *




                                                      - 36 -
We provide the current status of the open recommendations from the prior year in the following Exhibit.

This report is intended solely for the information and use of ATF’s management, DOJ Office of the Inspector
General, OMB, U.S. Government Accountability Office, and the U.S. Congress; it is not intended to be and should
not be used by anyone other than these specified parties.


COTTON & COMPANY LLP




Catherine L. Nocera, CPA, CISA
Partner

November 5, 2012
Alexandria, Virginia




                                                    - 37 -
                                                                                                              EXHIBIT

                          STATUS OF PRIOR YEAR’S FINDING AND RECOMMENDATIONS

As required by Government Auditing Standards issued by the Comptroller General of the United States, and by
OMB Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as amended, we have reviewed the
status of the prior year’s finding and recommendations. The following table provides our assessment of the
progress ATF has made in correcting the previously identified significant deficiency. We also provide the Office of
the Inspector General report number where the deficiency was reported, our recommendation for improvement,
and the status of the recommendation as of the end of fiscal year 2012:

                    Significant
    Report                                              Recommendation                               Status
                    Deficiency
 Annual         Controls over         Recommendation No. 1: ATF needs to establish                 Completed
 Financial      Financial             stronger oversight controls for financial reporting
 Statements     Reporting Need        and validation of recorded transactions, including:
 Fiscal Year    Improvement
                                          •    timely and comprehensive reconciliation of
 2011
                                               general ledger account balances with
 Report
                                               subsidiary records;
 No. 12-14
                                          •    review and approval of source
                                               documentation, calculations, and posting by
                                               someone other than the preparer; and
                                          •    more thorough data analysis and managerial
                                               reviews, including performance of more
                                               analytical procedures at the transaction, and
                                               general ledger account level.
                                      Recommendation No. 2: ATF needs to work with the             Completed
                                      Department to standardize recording and reporting
                                      of upward and downward adjustments.
                                      Recommendation No. 3: ATF needs to implement a               Completed
                                      quality control review process for second-party
                                      review of the annual statistical accounts payable
                                      accrual rate development, as well as the quarterly
                                      accrual calculations.




                                                     - 38 -
                          INDEPENDENT AUDITORS’ REPORT ON COMPLIANCE AND OTHER MATTERS


Inspector General
United States Department of Justice


Acting Director
Bureau of Alcohol, Tobacco, Firearms and Explosives
United States Department of Justice


We have audited the Consolidated Balance Sheets of the Bureau of Alcohol, Tobacco, Firearms and Explosives
(ATF), a component of the United States Department of Justice (DOJ), as of September 30, 2012 and 2011, and the
related Consolidated Statements of Net Cost, Consolidated Statements of Changes in Net Position, Combined
Statements of Budgetary Resources, and Combined Statements of Custodial Activity for the years then ended, and
have issued our report thereon dated November 5, 2012. We conducted our audits in accordance with auditing
standards generally accepted in the United States of America; standards applicable to financial audits contained in
Government Auditing Standards, issued by the Comptroller General of the United States; and Office of
Management and Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as
amended.

ATF’s management is responsible for complying with laws, regulations, and contract agreements applicable to ATF.
As part of obtaining reasonable assurance about whether ATF’s fiscal year 2012 financial statements are free of
material misstatement, we performed tests of its compliance with certain provisions of laws, regulations, and
contract agreements, noncompliance with which could have a direct and material effect on the determination of
financial statement amounts, and certain provisions of other laws and regulations specified in OMB Bulletin
No. 07-04, including the provisions referred to in section 803(a) of the Federal Financial Management
Improvement Act of 1996 (FFMIA). However, providing an opinion on compliance with those provisions was not an
objective of our audit, and accordingly, we do not express such an opinion. The results of our tests of compliance,
exclusive of those referred to in FFMIA, disclosed no instances of noncompliance or other matters that are
required to be reported under Government Auditing Standards and OMB Bulletin No. 07-04.

Under FFMIA, we are required to report whether ATF’s financial management systems substantially comply with
federal financial management system requirements, applicable federal accounting standards, and application of
the United States Standard General Ledger at the transaction level. To meet this requirement, we performed tests
of compliance with FFMIA section 803(a) requirements.

The results of our tests of FFMIA disclosed no instances in which ATF’s financial management systems did not
substantially comply with the requirements described in the preceding paragraph.




                                                      - 39 -
This report is intended solely for the information and use of ATF’s management, DOJ Office of the Inspector
General, OMB, U.S. Government Accountability Office, and the U.S. Congress; it is not intended to be and should
not be used by anyone other than these specified parties.


COTTON & COMPANY LLP




Catherine L. Nocera, CPA, CISA
Partner

November 5, 2012
Alexandria, Virginia




                                                    - 40 -
          Principal Financial Statements
                and Related Notes

See Independent Auditors’ Report on Financial Statements




                       - 41 -
This page intentionally left blank. 





                - 42 -
                                      U.S. Department of Justice

                         Bureau of Alcohol, Tobacco, Firearms and Explosives

                                    Consolidated Balance Sheets

                                 As of September 30, 2012 and 2011

Dollars in Thousands                                                                                     2012          2011

ASSETS (Note 2)
      Intragovernmental
          Fund Balance with U.S. Treasury (Note 3)                                        $        232,563      $   241,768
          Accounts Receivable, Net (Note 5)                                                         37,105           27,803
          Other Assets (Note 8)                                                                      1,514            7,643
      Total Intragovernmental                                                                      271,182          277,214
      Cash and Monetary Assets (Note 4)                                                             71,196           68,184
      Accounts Receivable, Net (Note 5)                                                                352              256
      General Property, Plant and Equipment, Net (Note 7)                                          206,737          210,262
      Advances and Prepayments                                                                         963              786
Total Assets                                                                              $       550,430       $   556,702
LIABILITIES (Note 9)
      Intragovernmental
          Accounts Payable                                                                $            13,996   $    14,942
          Accrued Federal Employees' Compensation Act Liabilities                                      20,852        20,074
          Other Liabilities (Note 12)                                                                  10,450        10,474
      Total Intragovernmental                                                                          45,298        45,490

      Accounts Payable                                                                              42,947           45,450
      Actuarial Federal Employees' Compensation Act Liabilities                                    116,959          110,697
      Accrued Payroll and Benefits                                                                  33,917           34,276
      Accrued Annual and Compensatory Leave Liabilities                                             51,019           51,897
      Seized Cash and Monetary Instruments (Notes 4 and 11)                                          4,932            3,527
      Capital Lease Liabilities (Note 10)                                                              394            1,071
      Other Liabilities (Note 12)                                                                   61,073           59,905
Total Liabilities                                                                         $       356,539       $   352,313
NET POSITION
      Unexpended Appropriations - All Other Funds                                         $        175,104      $   174,210
      Cumulative Results of Operations - All Other Funds                                            18,787           30,179
Total Net Position                                                                        $       193,891       $   204,389
Total Liabilities and Net Position                                                        $       550,430       $   556,702
                          The accompanying notes are an integral part of these financial statements.




                                                          - 43 -
                                          U.S. Department of Justice
                            Bureau of Alcohol, Tobacco, Firearms and Explosives
                                     Consolidated Statements of Net Cost
                           For the Fiscal Years Ended September 30, 2012 and 2011

Dollars in Thousands

                                  Gross Costs                                   Less: Earned Revenues                   Net Cost of
                    Intra­         With the                              Intra­        With the                         Operations
          FY     governmental       Public              Total         governmental      Public        Total              (Note 14)


Goal 1    2012    $           -   $      6,419      $       6,419     $             -    $            -    $        -   $      6,419
          2011    $           -   $      5,649      $       5,649     $             -    $            -    $        -   $      5,649

Goal 2    2012         383,250         895,426          1,278,676             80,866               503         81,369       1,197,307
          2011         381,239         886,810          1,268,049             90,650               650         91,300       1,176,749

Total     2012    $    383,250    $    901,845      $ 1,285,095       $       80,866     $         503     $   81,369   $ 1,203,726
          2011    $    381,239    $    892,459      $ 1,273,698       $       90,650     $         650     $   91,300   $ 1,182,398


Goal 1   Prevent Terrorism and Promote the Nation’s Security Consistent with the Rule of Law
Goal 2   Prevent Crime, Protect the Rights of the American People, and Enforce Federal Law


                              The accompanying notes are an integral part of these financial statements.




                                                              - 44 -
                                      U.S. Department of Justice

                        Bureau of Alcohol, Tobacco, Firearms and Explosives

                         Consolidated Statements of Changes in Net Position

                       For the Fiscal Years Ended September 30, 2012 and 2011

Dollars in Thousands                                                                                       2012             2011
Unexpended Appropriations
  Beginning Balances                                                                        $        174,210      $     202,183

   Budgetary Financing Sources
      Appropriations Received                                                                      1,152,000           1,114,772
      Appropriations Transferred-In/Out                                                              (15,067)             (7,892)
      Other Adjustments                                                                                    -              (2,231)
      Appropriations Used                                                                         (1,136,039)         (1,132,622)
   Total Budgetary Financing Sources                                                                     894             (27,973)

   Unexpended Appropriations                                                                $        175,104      $     174,210

Cumulative Results of Operations
  Beginning Balances                                                                        $            30,179   $      29,258

   Budgetary Financing Sources
      Appropriations Used                                                                          1,136,039          1,132,622

   Other Financing Sources
      Transfers-In/Out Without Reimbursement                                                             15,949           3,153
      Imputed Financing from Costs Absorbed
         by Others (Note 15)                                                                             40,346          47,544

   Total Financing Sources                                                                         1,192,334          1,183,319

   Net Cost of Operations                                                                         (1,203,726)         (1,182,398)

   Net Change                                                                                        (11,392)               921

   Cumulative Results of Operations                                                         $            18,787   $      30,179

Net Position                                                                                $        193,891      $     204,389

                            The accompanying notes are an integral part of these financial statements.




                                                            - 45 -
                                      U.S. Department of Justice

                        Bureau of Alcohol, Tobacco, Firearms and Explosives

                            Combined Statements of Budgetary Resources

                       For the Fiscal Years Ended September 30, 2012 and 2011


Dollars in Thousands                                                                                   2012            2011

Budgetary Resources
   Unobligated Balance, Brought Forward, October 1                                      $         60,967      $     110,131

   Recoveries of Prior Year Unpaid Obligations                                                    32,746             21,159
   Other Changes in Unobligated Balance                                                          (14,933)            (7,780)
   Unobligated Balance from Prior Year Budget Authority, Net                                      78,780            123,510

   Appropriations                                                                              1,151,866          1,112,429
   Spending Authority from Offsetting Collections                                                 94,820             85,420

Total Budgetary Resources                                                               $    1,325,466        $   1,321,359

Status of Budgetary Resources
   Obligations Incurred (Note 16)                                                       $      1,279,257      $   1,260,392
   Unobligated Balance, End of Period:
      Apportioned                                                                                 29,929             38,931
      Unapportioned                                                                               16,280             22,036
   Total Unobligated Balance - End of Period                                                      46,209             60,967
Total Status of Budgetary Resources:                                                    $    1,325,466        $   1,321,359

Change in Obligated Balance
   Obligated Balance, Net - Brought Forward, October 1
      Unpaid Obligations, Gross                                                         $        245,431      $     226,042
      Less: Uncollected Customer Payments from Federal Sources                                    59,852             70,397
          Total Obligated Balance, Net - Brought Forward, October 1                              185,579            155,645
   Obligations Incurred                                                                        1,279,257          1,260,392
   Less: Outlays, Gross                                                                        1,233,314          1,219,844
   Change in Uncollected Customer Payments from Federal Sources                                   (7,219)            10,545
   Less: Recoveries of Prior Year Unpaid Obligations                                              32,746             21,159

   Obligated Balance, Net - End of Period
      Unpaid Obligations, Gross                                                         $        258,628            245,431
      Less: Uncollected Customer Payments from Federal Sources                                    67,071             59,852
   Total Obligated Balance, Net - End of Period                                         $       191,557       $    185,579

Budgetary Authority and Outlays, Net:
   Budgetary Authority, Gross                                                           $      1,246,686      $   1,197,849
   Less: Actual Offsetting Collections                                                            87,601             95,965
   Change in Uncollected Customer Payments from Federal Sources                                   (7,219)            10,545
   Budget Authority, Net                                                                $    1,151,866        $   1,112,429

   Outlays, Gross                                                                       $      1,233,314      $   1,219,844
   Less: Actual Offsetting Collections                                                            87,601             95,965
   Outlays, Net                                                                                1,145,713          1,123,879
   Less: Distributed Offsetting Receipts                                                           2,859              3,892
   Agency Outlays, Net                                                                  $    1,142,854        $   1,119,987

                          The accompanying notes are an integral part of these financial statements.




                                                         - 46 -
                                       U.S. Department of Justice

                         Bureau of Alcohol, Tobacco, Firearms and Explosives

                               Combined Statements of Custodial Activity

                        For the Fiscal Years Ended September 30, 2012 and 2011


Dollars in Thousands                                                                               2012            2011

Revenue Activity
 Sources of Cash Collections
    Fees and Licenses                                                               $            21,710      $   17,437
    Fines, Penalties and Restitution Payments - Civil                                                18              20
    Fines, Penalties and Restitution Payments - Criminal                                             74              95
    Miscellaneous                                                                                 2,873           3,892

        Total Cash Collections                                                                   24,675          21,444
 Accrual Adjustments                                                                                    13           26

 Total Custodial Revenue                                                                         24,688          21,470

Disposition of Collections
    Transferred to Federal Agencies
        U.S. Department of the Treasury                                                         (24,328)         (21,138)
    Refunds and Other Payments                                                                     (360)           (332)

Net Custodial Activity (Note 17)                                                    $                    -   $         -

                           The accompanying notes are an integral part of these financial statements.




                                                            - 47 -
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)

1. Summary of Significant Accounting Policies

       A. Reporting Entity

       The Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF or the Bureau),
       a principal law enforcement agency, is within the Department of Justice (DOJ or
       the Department). ATF’s mission is to reduce violent crime, prevent terrorism,
       and promote the Nation’s security. The men and women of ATF perform the dual
       responsibilities of enforcing Federal criminal laws and regulating the firearms and
       explosive industries.

       B. Basis of Presentation

       These financial statements have been prepared from the books and records of
       ATF in accordance with United States generally accepted accounting principles
       issued by the Federal Accounting Standards Advisory Board (FASAB) and
       presentation guidelines in the Office of Management and Budget (OMB) Circular
       A-136, Financial Reporting Requirements. These financial statements are
       different from the financial reports prepared pursuant to OMB directives which
       are used to monitor and control the use of ATF’s budgetary resources.

       Throughout these financial statements, intragovernmental assets, liabilities,
       earned revenues, and costs have been classified according to the type of entity
       with which the transactions are made. Intragovernmental assets and liabilities are
       those from or to other Federal entities. Intragovernmental earned revenues are
       collections or accruals of revenue from other Federal entities and
       intragovernmental costs are payments or accruals of payments to other Federal
       entities.

       To ensure that ATF’s financial statements are meaningful at the entity level and to
       enhance reporting consistency within the Department, Other Assets and Other
       Liabilities as defined by OMB Circular A-136 have been disaggregated on the
       balance sheet. These include Advances and Prepayments, Accrued Federal
       Employees’ Compensation Act Liabilities, Accrued Payroll and Benefits, Accrued
       Annual and Compensatory Leave Liabilities, Seized Cash and Monetary
       Instruments, Capital Lease Liabilities, and Contingent Liabilities.




              These notes are an integral part of these financial statements.
                                          - 48 -
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


1. Summary of Significant Accounting Policies (continued)

       C. Basis of Consolidation

       The consolidated/combined financial statements include the accounts of ATF. All
       significant proprietary intra-entity transactions and balances have been eliminated
       in consolidation. The Statements of Budgetary Resources and Statements of
       Custodial Activity are combined statements for FYs 2012 and 2011, and as such,
       intra-entity transactions have not been eliminated.

       D. Basis of Accounting

       Transactions are recorded on the accrual and budgetary basis of accounting.
       Under the accrual basis, revenues are recorded when earned and expenses are
       recorded when incurred, regardless of when cash is exchanged. Under the
       budgetary basis, however, funds availability is recorded based upon legal
       considerations and constraints. As a result, certain line items on the proprietary
       financial statements may not equal similar line items on the budgetary financial
       statements. The Combined Statements of Custodial Activity are presented on a
       modified cash basis. Civil and criminal debt collections are recorded when the
       Department receives payment from debtors to the Federal Government. Accrual
       adjustments are made related to collections of fees and licenses.

       E. Non-Entity Assets

       Non-entity assets are those assets that are held by ATF but are not available for
       use by ATF. Non-entity assets are reported on ATF’s Consolidated Balance
       Sheets as accounts receivable, and cash and monetary assets. Non-entity accounts
       receivable consists of taxpayer debts due to ATF. Non-entity assets equal non­
       entity liabilities. Non-entity assets are not considered a financing source
       (revenue) available to offset operating expenses of ATF.

       F. Fund Balance with U.S. Treasury and Cash

       The Department of the Treasury (Treasury) processes the Bureau’s cash receipts
       and disbursements. Entity fund balance with Treasury and cash are primarily
       appropriated funds available to pay current liabilities and to finance authorized
       purchase commitments.

       ATF does not have disbursing authority. ATF maintains cash in commercial
       banks to facilitate the replenishment of the Bureau’s imprest funds as well as
       seized cash held for evidence, and special operations.




              These notes are an integral part of these financial statements.
                                          - 49 -
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


1. Summary of Significant Accounting Policies (continued)

       G. Accounts Receivable, Net

       Intragovernmental accounts receivable consist of amounts due under reimbursable
       agreements with Federal entities for services provided by ATF. Accounts
       receivable due from Federal agencies are considered to be fully collectible.
       Public accounts receivable consists of employee and vendor accounts receivable.
       An allowance for doubtful accounts is established for public accounts receivable
       when it is more likely than not that the accounts receivable will not be collected.
       The allowance is based on the debtor’s ability to pay, debtor’s payment record,
       and probability of recovery.

       H. General Property, Plant and Equipment

       Personal property and equipment purchased with a cost greater than or equal to
       $25,000 (dollars) per unit and a useful life of two years or more, is capitalized and
       depreciated. Other equipment is expensed when purchased. Real property and
       leasehold improvements with a cost greater than or equal to $100,000 (dollars)
       per unit, and a useful life of two years or more, is capitalized and depreciated.
       Leasehold improvements are amortized over the lesser of the life of the lease or
       useful life of the asset. Normal repairs and maintenance are charged to expense
       as incurred.

       ATF also capitalizes internal use software when costs are greater than or equal to
       $500,000 (dollars). The same threshold also applies to enhancements that add
       significant functionality to the software. ATF amortizes business software over
       seven years and personal productivity software over three years. Depreciation
       and amortization are calculated using the straight-line method.

       As a Bureau under Treasury, ATF’s policy was to capitalize bulk purchases that
       are defined as purchases of multiple similar items that on an individual basis do
       not meet the capitalization threshold, but when purchased as a lot, exceeded
       $250,000 (dollars). This policy was consistent with Treasury’s policy. The
       Department does not have a similar policy; therefore, beginning January 24, 2003
       (the date of transfer to DOJ), such bulk purchases are no longer capitalized. Due
       to the large dollar amount of capitalized bulk purchases, ATF has been allowed to
       let them depreciate over time versus writing them off all at once. ATF has
       approximately $6 (net) of bulk purchases remaining in General Property, Plant
       and Equipment as of September 30, 2012, which will be fully depreciated by the
       end of FY 2013.




              These notes are an integral part of these financial statements.
                                          - 50 -
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


1. Summary of Significant Accounting Policies (continued)

       I. Advances and Prepayments

       Prepayments are payments made to individuals or other organizations to cover
       certain periodic expenses before those expenses are incurred. In accordance with
       Public Law 91-614, ATF participates in the Treasury’s Working Capital Fund
       from which it receives services on a reimbursable basis. Payments made in
       advance are authorized for services that have been deemed more advantageous
       and economical when provided centrally. Advances and prepayments involving
       other Federal agencies are classified as Other Assets on the Balance Sheet.

       ATF prepaid to the General Services Administration (GSA) $28,441 in costs related
       to the construction of its new headquarters building. Those prepaid costs were
       considered construction in progress and land acquisition when they occurred. ATF
       does not hold title to the land. The building was substantially complete in FY 2007
       and the prepaid costs were transferred out of construction in progress and land, and
       recognized as a prepayment. The prepaid costs have been expensed over five years in
       accordance with rent credits specified in the GSA occupancy agreement. As of
       September 30, 2012, the prepaid costs are fully expensed.

       J. Forfeited and Seized Property

       ATF seizes property in consequence of a violation of public law. Generally,
       seized property includes monetary instruments, various types of weapons,
       ammunition and explosives. Seized property can be held for evidence, forfeited,
       or destroyed. All property seized for evidence is maintained by ATF. This
       property is recorded at the estimated fair market value at the time of the seizure
       and is not adjusted for any subsequent increases and decreases in estimated fair
       value. ATF discloses the value of personal property when the individual item
       seized is worth $1,000 (dollars) or more at the time of seizure. Seized cash is
       recorded as an asset under Cash and Monetary Assets. The offsetting liability is
       recorded under Seized Cash and Monetary Instruments.

       ATF also participates in the DOJ Assets Forfeiture Fund (the Fund). ATF is
       reimbursed by the Fund for carrying out forfeiture activities. ATF contributes
       forfeited property to the Fund. Firearms that are seized for forfeiture are either
       returned, destroyed, or placed into official use. Non-prohibited property includes
       property such as real estate, vehicles, cash, Title I Firearms (as defined in Title 18
       USC Section 922(a) (3)), ammunition and other personal property that is in itself
       legal to possess. Title 18 USC 3051 and the regulations therein, prohibit the sale of
       firearms or the transfer of firearms owned by the United States to anyone other than
       another Federal government entity. ATF’s seized prohibited property (contraband)
       may include illegal drugs and untaxed liquor. All other types of property are legal
       to possess, however, the possessor may be prohibited from possession.

              These notes are an integral part of these financial statements.
                                          - 51 -
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


1. Summary of Significant Accounting Policies (continued)

       J. Forfeited and Seized Property (continued)

       Quantities of illegal drugs and firearms held as evidence are disclosed in Note 6 in
       accordance with Statement of Federal Financial Accounting Standards (SFFAS)
       No. 3, Accounting for Inventory and Related Property, and Federal Financial
       Accounting and Auditing Technical Release No. 4, Reporting on Non-Valued
       Seized and Forfeited Property. Reported quantities of drugs include only
       substances over one kilogram (KG) that are laboratory-analyzed and confirmed.

       K. Liabilities

       Liabilities represent the amount of monies, or other resources, that are likely to be
       paid by ATF as the result of a transaction or event. However, no liability can be
       paid by ATF without an appropriation. Liabilities for which an appropriation has
       not been enacted, and for which there is uncertainty an appropriation will be
       enacted, are classified as liabilities not covered by budgetary resources. Also,
       liabilities of ATF arising from other than contracts can be abrogated by the
       Government acting in its sovereign capacity.

       Intragovernmental liabilities consist of amounts payable to the Treasury for
       custodial fees collected by ATF, payables to other Federal agencies, and accrued
       Federal Employees' Compensation Act (FECA) charges. In addition, public
       liabilities are amounts due to be refunded to taxpayers and other payables due to
       public vendors.

       Other Liabilities consists primarily of project-generated proceeds. The proceeds
       will be transferred to the Department of the Treasury General Fund at the
       conclusion of the project.

       L. Contingencies and Commitments

       ATF is party to various administrative proceedings, legal actions, and claims.
       The balance sheet includes an estimated liability for those legal actions where
       management and the Chief Counsel consider adverse decisions “probable” and
       amounts are reasonably estimable. Legal actions where management and the
       Chief Counsel consider adverse decisions “probable” or “reasonably possible”
       and the amounts are reasonably estimable are disclosed in Note 13, Contingencies
       and Commitments. However, there are cases where amounts have not been
       accrued or disclosed because the amounts of the potential loss cannot be estimated
       or the likelihood of an unfavorable outcome is considered “remote.”




              These notes are an integral part of these financial statements.
                                          - 52 -
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


1. Summary of Significant Accounting Policies (continued)

       M. Annual, Sick, and Other Leave

       Annual and compensatory leave earned by ATF employees, but not yet used, is
       reported as an accrued liability. Annual leave is accrued as it is earned by
       employees and is included in personnel compensation and benefit costs. An
       unfunded liability is recognized for earned but unused annual leave since from a
       budgetary standpoint, this annual leave will be paid from future appropriations
       when the leave is used by employees rather than from amounts that were
       appropriated to ATF as of the date of the financial statements. The amount
       accrued is based upon current pay rates of the employees. Sick leave and other
       types of leave are expensed when used and no liability is recognized for these
       amounts, as employees do not vest in these benefits.

       N. Interest on Late Payments

       Pursuant to the Prompt Payment Act, 31 U.S.C. § 3901-3907, Federal agencies
       must pay interest on payments for goods or services made to business concerns
       after the due date. The due date is generally 30 days after receipt of a proper
       invoice or acceptance of the goods or services, whichever is later.

       O. Retirement Plans

       With few exceptions, employees hired before January 1, 1984, are covered by the
       Civil Service Retirement System (CSRS) and employees hired after December 31,
       1983, are covered by the Federal Employees Retirement System (FERS).

       For employees covered by the CSRS, ATF contributes 7 percent of the
       employee’s gross pay for normal retirement or 7.5 percent for law enforcement
       retirement. For employees covered by the FERS, ATF contributes 11.9 percent of
       the employee’s gross pay for normal retirement or 26.3 percent for law
       enforcement retirement. All employees are eligible to contribute to the Federal
       Thrift Savings Plan (TSP). For those employees covered by the FERS, a TSP is
       automatically established, and ATF is required to contribute an additional
       1 percent of gross pay to this plan and match employee contributions up to
       4 percent. No matching contributions are made to the TSPs established by the
       CSRS employees. ATF does not report CSRS or FERS assets, accumulated plan
       benefits, or unfunded liabilities, if any, which may be applicable to its employees.
       Such reporting is the responsibility of the Office of Personnel Management
       (OPM).




              These notes are an integral part of these financial statements.
                                          - 53 -
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


1. Summary of Significant Accounting Policies (continued)

       O. Retirement Plans (continued)

       SFFAS No. 5, Accounting for Liabilities of the Federal Government, requires
       employing agencies to recognize the cost of pensions and other retirement
       benefits during their employees’ active years of service. Refer to Note 15,
       Imputed Financing from Costs Absorbed by Others.

       P. Federal Employee Compensation Benefits

       FECA provides income and medical cost protection to covered Federal civilian
       employees injured on the job and employees who have incurred a work-related
       injury or occupational disease. The future workers’ compensation estimates were
       generated from an application of actuarial procedures developed to estimate the
       liability for FECA benefits. The actuarial liability estimates for FECA benefits
       include the expected liability for death, disability, medical and miscellaneous
       costs for approved compensation cases. The liability is determined using the paid
       losses extrapolation method, which is calculated over the next 37-year period.
       This method utilizes historical benefit payment patterns related to a specific
       incurred period to predict ultimate payments related to that period. The projected
       annual benefit payments were discounted to present value.

       Claims are paid for ATF employees by the Department of Labor (DOL) from the
       FECA fund, for which ATF reimburses DOL. The accrued liability represents
       claims paid by DOL for ATF employees, for which the fund has not been
       reimbursed. The actuarial liability is an estimate of future costs to be paid on
       claims made by ATF employees. The estimated future cost is not obligated
       against budgetary resources until the year in which the cost is billed to ATF.

       Q. Intragovernmental Activity

       Intragovernmental costs and exchange revenue represent transactions made
       between two reporting entities within the Federal government. Costs and earned
       revenues with the public represent exchange transactions made between the
       reporting entity and a non-Federal entity. The classification of revenue or cost as
       “intragovernmental” or “with the public” is defined on a transaction-by-transaction
       basis. The purpose of this classification is to enable the Federal government to
       prepare consolidated financial statements, not to match public and
       intragovernmental revenue with the costs incurred to produce public and
       intragovernmental revenue.




              These notes are an integral part of these financial statements.
                                          - 54 -
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


1. Summary of Significant Accounting Policies (continued)

       R. Revenues and Other Financing Sources

               (1) Exchange Revenues

               Exchange revenues are inflows of resources to a government entity that
               the entity has earned by providing something of value to the public or
               another government entity at a price. ATF, currently, has agreements in
               place which are reimbursed through the Department of Justice Assets
               Forfeiture Fund. In addition, ATF provides a number of services
               including law enforcement, training and professional development, and
               science and information technology to other government agencies through
               reimbursable agreements. Exchange revenues are presented on the
               Consolidated Statements of Net Cost. ATF’s exchange revenues from
               other government agencies include an agreement with the U.S.
               Department of State to train explosives-detecting canines for foreign
               countries. The canines are used in foreign countries to combat terrorism
               and protect American travelers abroad. Similarly, ATF is funded on a
               reimbursable basis for activity related to enforcement of the Controlled
               Substances Act.

               (2) Nonexchange Revenues

               Nonexchange revenues are inflows of resources that the government
               demands or receives by donation. For ATF, most nonexchange revenues
               result from collecting fees from firearms and explosives industries. As
               ATF is unable to keep any of these collections, they are recognized as
               custodial revenue and a corresponding liability when collected.

               Nonexchange revenues are presented on the Combined Statements of
               Custodial Activity as all amounts are transferred to the Treasury General
               Fund.

               (3) Other Financing Sources

               Other financing sources provide inflows of resources during the reporting
               period and include appropriations used and financing imputed with respect
               to any cost subsidies. Unexpended appropriations are recognized
               separately in determining net position but are not financing sources until
               used.

               ATF receives the majority of the funding needed to support its operations
               through congressional appropriations. The appropriations received are

              These notes are an integral part of these financial statements.
                                          - 55 -
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


1. Summary of Significant Accounting Policies (continued)

               (3) Other Financing Sources (continued)

               annual, multi-year, and no-year funding that may be used, within statutory
               limits, for operating and capital expenditures (primarily equipment,
               furniture, and furnishings). Appropriations are also received to meet
               specific program objectives. The Bureau’s activities are funded by the
               following:

                     15120700 – Salaries and Expenses Appropriation and
                         Reimbursable Authority

                     15X0700 – No-year Salaries and Expenses and Spectrum
                         Relocation Fund

                     15X0720 – No-year Appropriation for Construction Funding

                     1511/120700 – Two-year Appropriation for High Intensity Drug
                         Trafficking Area Initiative

                     1512/130700 – Two-year Appropriation for High Intensity Drug
                         Trafficking Area Initiative

                     15X8526 – Microstamping

               The above appropriations and the related gross costs, revenues, and the net
               costs as shown in the Consolidated Statements of Net Cost are in Federal
               budget functional classification 750, Administration of Justice. The
               accompanying financial statements include the accounts of the above six
               Treasury symbols as well as eleven expired Treasury Symbols which are
               under ATF control.

               Appropriations are recognized as a financing source at the time the related
               program or administrative expenditure is incurred. Costs financed by
               other Federal entities on behalf of ATF are recognized as imputed
               financing sources as required by SFFAS No. 5.

               Other financing sources also include non-financial distributions, such as
               seized property, received by ATF from the DOJ Assets Forfeiture Fund.
               These resources are used in law enforcement initiatives.

       S. Earmarked Funds

       SFFAS No. 27 defines ‘earmarked funds’ as being financed by specifically
       identified revenues, often supplemented by other financing sources, which remain

              These notes are an integral part of these financial statements.
                                          - 56 -
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


1. 	 Summary of Significant Accounting Policies (continued)

       S. 	Earmarked Funds (continued)

       available over time. These specifically identified revenues and other financing
       sources are required by statute to be used for designated activities, benefits, or
       purposes, and must be accounted for separately from the Government’s general
       revenues. The three required criteria for an earmarked fund are:

               1. 	 A statute committing the Federal Government to use specifically
                    identified revenues and other financing sources only for designated
                    activities, benefits, or purposes;

               2. 	 Explicit authority for the earmarked fund to retain revenues and other
                    financing sources not used in the current period for future use to
                    finance the designated activities, benefits, or purposes; and

               3. 	 A requirement to account for and report on the receipt, use, and
                    retention of the revenues and other financing sources that distinguishes
                    the earmarked fund from the Government’s general revenues.

       ATF does not have any funds that meet the definition of an earmarked fund.

       T. 	Tax Exempt Status

       As an agency of the Federal Government, ATF is exempt from all income taxes
       imposed by any governing body whether it be a Federal, state, commonwealth,
       local, or foreign government.

       U. 	Use of Estimates

       The preparation of financial statements requires management to make certain
       estimates and assumptions that affect the reported amounts of assets and liabilities
       and the reported amounts of revenue and expenses during the reporting period.
       Actual results could differ from those estimates.

       V. Reclassifications

       The FY 2011 financial statements were reclassified to conform to the FY 2012
       Departmental financial statement presentation requirements. Changes to the
       presentation of the Combined and Combining Statements of Budgetary Resources
       were made, in accordance with guidance provided in OMB Circular A-136,
       “Financial Reporting Requirements” and as such, activity and balances reported
       on the FY 2011 Combined and Combining Statement of Budgetary Resources

              These notes are an integral part of these financial statements.
                                          - 57 -
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


1. Summary of Significant Accounting Policies (continued)

       V. Reclassifications (continued)

       other prior year amounts have also been reclassified to conform with the current
       year presentation. The reclassifications had no material effect on total assets,
       liabilities, net position, change in net position or budgetary resources as
       previously reported.

       W. Subsequent Events

       Subsequent events and transactions occurring after September 30, 2012 through
       the date of the auditors’ opinion have been evaluated for potential recognition or
       disclosure in the financial statements. The date of the auditors’ opinion also
       represents the date that the financial statements were available to be issued.




              These notes are an integral part of these financial statements.
                                          - 58 -
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


2. Non-Entity Assets

Non-entity assets are assets that are held by ATF but are not available for use by ATF.
Non-entity assets are primarily project-generated proceeds and seized cash.

As of September 30, 2012 and 2011
                                                   2012             2011
With the Public
 Cash and Monetary Assets                     $     65,993      $     63,406

    Total Entity Assets                            484,437           493,296

    Total Assets                              $    550,430      $    556,702





              These notes are an integral part of these financial statements.
                                          - 59 -
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


3. Fund Balance with U.S. Treasury

As of September 30, 2012 and 2011
                                                          2012             2011
 Fund Balance
   Trust Funds                                        $     1,029      $     1,029
   General Funds                                          231,534          240,739
     Total Fund Balance with U.S. Treasury            $   232,563      $   241,768

 Status of Fund Balances
   Unobligated Balance - Available                $        29,929      $    38,931
   Unobligated Balance - Unavailable                       16,280           22,036
   Obligated Balance not yet Disbursed                    191,557          185,579
   Other Funds (With)/Without Budgetary Resources          (5,203)          (4,778)
     Total Status of Fund Balance                 $       232,563      $   241,768


As of September 30, 2012 and 2011, Other Funds (With)/Without Budgetary Resources
consisted of amounts held in ATF agent cashier (imprest) funds.




              These notes are an integral part of these financial statements.
                                          - 60 -
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


4. Cash and Monetary Assets

As of September 30, 2012 and 2011
                                                   2012             2011
 Cash
   Imprest Funds                           $         5,203      $        4,778
   Other Cash                                       61,061              59,879
                                                    66,264              64,657
 Monetary Assets
  Seized Monetary Instruments                        4,932               3,527
    Total Cash and Monetary Assets         $        71,196      $       68,184



Cash available for ATF use represents agent cashier (imprest) funds. The agent cashier
funds are used to finance the purchase of evidence and information from informants in
open ATF investigations and enforcement operations. Other Cash consists of project –
generated proceeds from undercover operations.

5. Accounts Receivable, Net

As of September 30, 2012 and 2011
                                                    2012                 2011
Intragovernmental
   Accounts Receivable                         $      37,105        $      27,803

With the Public
 Accounts Receivable                                     442                  315
 Allowance for Uncollectible Accounts                    (90)                 (59)
    Total With the Public                                352                  256
    Total Accounts Receivable                  $      37,457        $      28,059


Intragovernmental accounts receivable consist of amounts due under reimbursable
agreements with Federal entities for services provided by ATF. Accounts receivable due
from Federal agencies are considered to be fully collectible. Public accounts receivable
consist of employee and vendor accounts receivables.




              These notes are an integral part of these financial statements.
                                          - 61 -
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


6. Seized Property

Property is seized during the course of an investigation. This property is considered
contraband, evidence of a crime, or subject to forfeiture. All seized for forfeiture
property is reported by the DOJ Assets Forfeiture Fund. The seized for evidence
personal property category includes computers, vehicles, and other miscellaneous items.
Other seized property includes monetary instruments, handguns, machine guns, rifles and
shotguns. Seized property that will be destroyed, such as firearms, is reported as the
number of items seized, and is not considered to have a value.

Seized Monetary Instruments were valued at $4,932 as of September 30, 2012, and
$3,527 as of September 30, 2011. Seized Monetary Instruments is recorded as an asset
under Cash and Monetary Assets along with the offsetting liability under Seized Cash
and Monetary Instruments.




              These notes are an integral part of these financial statements.
                                          - 62 -
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


6. Seized Property (continued)

For the Fiscal Year Ended September 30, 2012

   Seized Property               Beginning    Adjust­                                 Ending
      Category                    Balance      ments       Seizures Disposals         Balance


Seized for Evidence

Seized Monetary
Instruments             Value    $    3,527    $       -   $ 4,718   $ 3,313      $       4,932

Personal Property *     Number          42           12         10          28               36
                        Value  $       290    $     333    $   105   $     198    $         530
Non-Valued
Firearms **             Number       29,906        1,078    11,595       11,145          31,434


* Adjustments for personal property are items seized prior to FY 2012 that were
  not previously recorded.

**Adjustments for non-valued firearms include property action status changes for
  firearms that were seized in a prior year and items seized prior to FY 2012 that
  were not previously recorded.

For the Fiscal Year Ended September 30, 2011

   Seized Property               Beginning    Adjust-	                            Ending
      Category	                   Balance      ments       Seizures Disposals     Balance


Seized for Evidence

Seized Cash Deposited
and Seized Monetary
Instruments           Value      $    3,010    $       -   $ 6,789   $ 6,272      $    3,527

Personal Property *	    Number          177      (105)           6          36            42
                        Value  $      1,725    $ (977) $        38   $     496    $      290
Non-Valued
Firearms **             Number       13,445        7,307    10,150         996        29,906


* Adjustments for personal property are items classified as seized administratively
and seized judicially that were determined to be seized for forfeiture. In
prior years, these items were included in the seized for evidence balance.

**Adjustments for non-valued firearms are items classified as abandoned or
purchased. In prior years, these items were not included in the seized for
evidence balance.
                 These notes are an integral part of these financial statements.
                                              - 63 -
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


6. Seized Property (continued)

Method of Disposition of Seized Property:

During FY 2012 and 2011, $198 and $496 of valued property seized for evidence were
returned to parties with a bonafide interest, and $3,313 and $6,272 were either released to
a designated party or transferred to the appropriate federal entity under forfeiture or
abandonment proceedings. Non-valued property was primarily disposed of through
destruction.




              These notes are an integral part of these financial statements.
                                          - 64 -
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


7. General Property, Plant and Equipment, Net

As of September 30, 2012                 Acquisition    Accumulated      Net Book    Useful
                                           Cost         Depreciation      Value       Life
Land and Land Rights                     $   3,200       $         -     $ 3,200      N/A
Improvements to Land                         4,926          (1,187)          3,739   15 yrs
Construction in Progress                        507                -           507    N/A
Buildings, Improvements, and
   Renovations                             137,255          (26,643)       110,612 40 yrs
Structures                                     183               (4)           179 20 yrs
Vehicles                                    48,613          (32,215)        16,398 3-6 yrs
Equipment                                   83,087          (67,308)        15,779 3-10 yrs
Assets Under Capital Lease                   2,235           (1,552)           683 5-6 yrs
Leasehold Improvements                     118,327          (79,741)        38,586 2-20 yrs
Internal Use Software                       19,003          (13,149)         5,854 3-7 yrs
Internal Use Software in Development        11,200                -         11,200    N/A
Total                                    $ 428,536       $ (221,799)     $ 206,737


As of September 30, 2011                 Acquisition    Accumulated      Net Book    Useful
                                           Cost         Depreciation      Value       Life
Land and Land Rights                     $   3,200       $         -     $ 3,200      N/A
Improvements to Land                         4,584            (866)          3,718   15 yrs
Construction in Progress                     2,216                 -         2,216    N/A
Buildings, Improvements, and
   Renovations                             137,018          (23,566)       113,452 40 yrs
Vehicles                                    42,586          (29,410)        13,176 3-6 yrs
Equipment                                   84,161          (71,761)        12,400 3-10 yrs
Assets Under Capital Lease                   3,497           (1,916)         1,581 5-6 yrs
Leasehold Improvements                     120,026          (75,412)        44,614 2-20 yrs
Internal Use Software                       19,003          (11,240)         7,763 3-7 yrs
Internal Use Software in Development         8,142                -          8,142    N/A
Total                                    $ 424,433       $ (214,171)     $ 210,262




              These notes are an integral part of these financial statements.
                                          - 65 -
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


7. General Property, Plant and Equipment, Net (continued)

Capitalized Property Purchases from Federal/the Public

                                                          2012             2011
Capitalized Property Purchases from Federal
   Construction in Progress                        $         319      $     1,727
   Improvements to Land                                       92                -
   Buildings, Improvements, and Renovations                  (36)           3,739
   Structures                                                137                -
   Vehicles                                                2,619              848
   Equipment                                                   -             (768)
   Leasehold Improvements                                    123            3,866
     Total purchased from Federal Sources          $       3,254      $     9,412

Capitalized Property Purchases from the Public
   Construction in Progress                           $  (7)           $  (244)
   Buildings, Improvements, and Renovations              74                133
   Vehicles                                           4,398              1,983
   Equipment                                          8,154              7,998
   Leasehold Improvements                               974              2,161
   Internal Use Software                              3,058              5,234
     Total purchased from the Public                 16,651             17,265
   Total Capitalized Purchases                     $ 19,905           $ 26,677


These amounts include current year adjustments in the property accounts.

ATF owns land located in Ammendale, Maryland that is recorded at its acquisition value.
There are no restrictions on the use or convertibility of property and equipment.




              These notes are an integral part of these financial statements.
                                          - 66 -
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


8. Other Assets

As of September 30, 2012 and 2011
                                                           2012                 2011
Intragovernmental
    Advances and Prepayments                           $      1,502       $       7,615
    Other Intragovernmental Assets                               12                  28
      Total Other Assets                               $      1,514      $        7,643


As of September 30, 2012, prepayments consisted of $1,427 to the Treasury Working
Capital Fund (WCF), and $75 to Office of Justice Programs (OJP). The remaining $12
was due to ATF from the Treasury General Fund. As of September 30, 2011,
prepayments consisted of $5,688 to General Services Administration (GSA), $1,715 to
WCF, $149 to OJP, and $63 to Department of Defense. The remaining $28 was due to
ATF from the Treasury General Fund.




              These notes are an integral part of these financial statements.
                                          - 67 -
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


9. Liabilities not Covered by Budgetary Resources

As of September 30, 2012 and 2011
                                                                  2012                2011
Intragovernmental
   Accrued FECA Liabilities                                   $     20,852       $     20,074
   Other Unfunded Employment Related Liabilities                        36                 51
     Total Intragovernmental                                        20,888             20,125


With the Public
 Actuarial FECA Liabilities                                        116,959            110,697
 Accrued Annual and Compensatory Leave Liabilities                  51,019             51,897
    Total With the Public                                          167,978            162,594
    Total Liabilities not Covered by Budgetary Resources           188,866            182,719
    Total Liabilities Covered by Budgetary Resources               167,673            169,594
    Total Liabilities                                    $         356,539       $    352,313


Generally, liabilities not covered by budgetary resources are liabilities for which
Congressional action is needed before budgetary resources can be provided.




              These notes are an integral part of these financial statements.
                                          - 68 -
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


10. Leases

As of September 30, 2012 and 2011

Capital Leases                                                2012              2011

Summary of Assets Under Capital Lease
   Machinery and Equipment                                $    2,235       $ 3,497
   Accumulated Depreciation                                   (1,552)        (1,916)
    Total Assets Under Capital Lease (Note 7)             $      683       $ 1,581

Future Capital Lease Payments Due
                                                        Machinery and
Fiscal Year                                              Equipment
2013                                                     $     556
     Total Future Capital Lease Payments                 $     556
Less: Imputed Interest                                           (5)
Less: Executory Costs                                         (157)
 FY 2012 Net Capital Lease Liabilities                   $     394
 FY 2011 Net Capital Lease Liabilities                   $ 1,071

                                                                             2012       2011
Net Capital Lease Liabilities Covered by Budgetary Resources               $    394    $ 1,071


ATF has one capital lease comprised of 257 postage meters along with associated
equipment. The total capital asset value is $2,235 with accumulated depreciation of
$1,552. As of September 30, 2012 capital lease liability for machinery and equipment
was $394. The postal equipment, with the exception of the meters, is leased to own. The
meters remain the property of the United States Postal Service. The postal meter lease
amortizes through FY 2013.




              These notes are an integral part of these financial statements.
                                          - 69 -
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


10. Leases (continued)

As of September 30, 2012


Future Noncancelable Operating Lease Payments

Fiscal Year                                                        Buildings
2013                                                             $       3,015
2014                                                                     3,037
2015                                                                     3,060
2016                                                                     3,061
2017                                                                     2,432
After 2017                                                               2,428
    Total Future Noncancelable Operating
        Lease Payments                                           $      17,033




              These notes are an integral part of these financial statements.
                                          - 70 -
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


11. Seized Cash and Monetary Instruments

ATF’s seized monetary instruments were $4,932 as of September 30, 2012, and $3,527 as
of September 30, 2011. All of this cash is seized in the course of law enforcement
activities and is held as evidence pending the outcome of any criminal proceedings.




              These notes are an integral part of these financial statements.
                                          - 71 -
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


12. Other Liabilities

As of September 30, 2012 and 2011
                                                               2012                 2011
Intragovernmental
   Employer Contributions and Payroll Taxes Payable        $     10,366         $    10,315
   Other Post-Employment Benefits Due and Payable                    48                 108
   Other Unfunded Employment Related Liabilities                     36                  51
     Total Intragovernmental                                     10,450              10,474

With the Public
 Other Accrued Liabilities                                           12                  26
 Other Liabilities                                               61,061              59,879
    Total with the Public                                        61,073              59,905
    Total Other Liabilities                                $     71,523         $    70,379


All Other Liabilities are considered current. Other Liabilities with the public, primarily
consists of project-generated proceeds. The proceeds will be remitted to the Treasury
General Fund at the conclusion of the project.




              These notes are an integral part of these financial statements.
                                          - 72 -
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


13. Contingencies and Commitments

                                         Accrued           Estimated Range of Loss
                                         Liabilities       Lower           Upper
 As of September 30, 2012
     Probable                        $           -     $        -       $         -
     Reasonably Possible                                      6,001             7,500

 As of September 30, 2011
     Probable                        $           -     $        -       $         -
     Reasonably Possible                                      6,000             7,500




              These notes are an integral part of these financial statements.
                                            - 73 -
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


14. Net Cost of Operations by Suborganization

For the Fiscal Year Ended September 30, 2012
                                                   Suborganizations

                                                      Explosives Alcohol and
                                        Firearms      and Arson Tobacco          Consolidated

Goal 1: Prevent Terrorism and Promote the Nation's Security Consistent with the Rule of Law
   Cost of Operations                   $         -   $     6,419   $        -   $      6,419

Goal 2: Prevent Crime, Protect the Rights of the American People, and Enforce Federal Law


   Gross Cost                               992,464       263,645       22,567       1,278,676
   Less: Earned Revenue                      60,624        19,625        1,120          81,369
   Net Cost of Operations                   931,840       244,020       21,447       1,197,307

Net Cost of Operations                  $ 931,840     $ 250,439     $ 21,447     $   1,203,726




              These notes are an integral part of these financial statements.
                                            - 74 -
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


14. Net Cost of Operations by Suborganization (continued)

For the Fiscal Year Ended September 30, 2011
                                                   Suborganizations

                                                      Explosives Alcohol and
                                        Firearms      and Arson Tobacco          Consolidated

Goal 1: Prevent Terrorism and Promote the Nation's Security Consistent with the Rule of Law
   Cost of Operations                   $     2,319   $     3,269   $      61    $       5,649

Goal 2: Prevent Crime, Protect the Rights of the American People, and Enforce Federal Law


   Gross Cost                               958,955       284,639       24,455       1,268,049
   Less: Earned Revenue                      68,502        21,374        1,424          91,300
   Net Cost of Operations                   890,453       263,265       23,031       1,176,749

Net Cost of Operations                  $ 892,772     $ 266,534     $ 23,092     $   1,182,398



ATF activity primarily supports DOJ’s goal to Prevent Crime, Protect the Rights of the
American People, and Enforce Federal Law. ATF participation in the Joint Terrorism
Task Force and the Terrorist Device Analysis Center supports DOJ’s goal to Prevent
Terrorism and Promote the Nation’s Security Consistent with the Rule of Law. Revenue
is not associated with this goal.




              These notes are an integral part of these financial statements.
                                            - 75 -
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


15. Imputed Financing from Costs Absorbed by Others

Imputed Inter-Departmental Financing Sources are the unreimbursed (i.e., non-reimbursed
and under-reimbursed) portion of the full costs of goods and services received by ATF
from a providing entity that is not part of the U.S. Department of Justice. In accordance
with SFFAS No. 30, Inter-Entity Cost Implementation Amending SFFAS 4, Managerial
Cost Accounting Standards and Concepts, the material Imputed Inter-Departmental
financing sources recognized by ATF are the cost of benefits for the Federal Employees
Health Benefits Program (FEHB), the Federal Employees’ Group Life Insurance Program
(FEGLI), the Federal pension plans that are paid by other Federal entities, and any
un-reimbursed payments made from the Treasury Judgment Fund on behalf of ATF. The
Treasury Judgment Fund was established by the Congress and funded at 31 U.S.C. 1304
to pay in whole or in part the court judgments and settlement agreements negotiated by
the Department on behalf of agencies, as well as certain types of administrative awards.
Interpretation of Federal Financial Accounting Standards Interpretation No. 2,
Accounting for Treasury Judgment Fund Transactions, requires agencies to recognize
liabilities and expenses when unfavorable litigation outcomes are probable and the
amount can be estimated and will be paid by the Treasury Judgment Fund.

SFFAS No. 5, Accounting for Liabilities of the Federal Government, requires that
employing agencies recognize the cost of pensions and other retirement benefits during
their employees’ active years of service. SFFAS No. 5 requires OPM to provide cost
factors necessary to calculate cost. OPM actuaries calculate the value of pension benefits
expected to be paid in the future, and then determine the total funds to be contributed by
and for covered employees, such that the amount calculated would be sufficient to fund
the projected pension benefits. For employees covered by Civil Service Retirement
System (CSRS), the cost factors are 29.8% of basic pay for regular, 50.9% law
enforcement officers, 23.2% regular offset, and 45.2% law enforcement officers offset.
For employees covered by Federal Employees Retirement System (FERS), the cost
factors are 13.7% of basic pay for regular and 29.7% for law enforcement officers.

The cost to be paid by other agencies is the total calculated future costs, less employee
and employer contributions. In addition, the cost of other retirement benefits, which
include health and life insurance that are paid by other Federal entities, must also be
recorded.

Imputed Intra-Departmental Financing Sources as defined in SFFAS No. 4,
Managerial Cost Accounting Concepts and Standards for the Federal Government, are
the unreimbursed portion of the full costs of goods and services received by ATF from a
providing entity that is part of the U.S. Department of Justice. Recognition is required
for those transactions determined to be material to the receiving entity. The
determination of whether the cost is material requires considerable judgment based on the
specific facts and circumstances of each type of good or service provided. ATF does not
have any imputed Intra-Departmental financing sources. SFFAS No. 4 also states that

              These notes are an integral part of these financial statements.
                                          - 76 -
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


15. Imputed Financing from Costs Absorbed by Others (continued)

costs for broad and general support need not be recognized by the receiving entity, unless
such services form a vital and integral part of the operations or output of the receiving
entity. Costs are considered broad and general if they are provided to many, if not all,
reporting components and not specifically related to the receiving entity’s output. Those
costs determined to be material are presented in the table below.

For the Fiscal Years Ended September 30, 2012 and 2011
                                                             2012               2011
Imputed Inter-Departmental Financing
    Treasury Judgment Fund                               $        785      $      1,214
    Health Insurance                                           24,961            27,099
    Life Insurance                                                106               109
    Pension                                                    14,494            19,122
        Total Imputed Inter-Departmental                 $     40,346      $     47,544


Judgment Fund payments for FY 2012 and FY 2011 were paid by the Treasury on behalf
of ATF.

ATF does not report CSRS assets, FERS assets, accumulated plan benefits or unfunded
liabilities, if any, applicable to retirement plans because the accounting for and reporting
of such amounts is the responsibility of OPM. Based on cost factors provided by OPM,
estimated future pension benefits for ATF employees, to be paid by OPM as of
September 30, 2012 and September 30, 2011, are included in the chart above. Similarly,
OPM, rather than ATF, reports liabilities for future payments to retired employees who
participate in the FEHB and the FEGLI Program. The FY 2012 and FY 2011 FEHB cost
factors applied to a weighted average number of employees enrolled in the FEHB were
$5,817 (dollars) and $6,027 (dollars), respectively. The FEGLI cost factor for employees
enrolled in the FEGLI program, as provided by OPM, was .02 percent of their basic pay.




              These notes are an integral part of these financial statements.
                                          - 77 -
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


16. Information Related to the Statement of Budgetary Resources

Apportionment Categories of Obligations Incurred:

The amount of direct and reimbursable obligations against amounts apportioned under
Category A and B are reported in the table below. The apportionment categories are
determined in accordance with the guidance provided in Part 4 of OMB Circular A-11,
Preparation, Submission and Execution of the Budget. Category A represents resources
apportioned for calendar quarters. Category B represents resources apportioned for other
time periods; for activities, projects, and objectives or for a combination thereof.

                                                                                       Total
                                                       Direct        Reimbursable   Obligations
                                                      Obligations     Obligations    Incurred

For the Fiscal Year Ended September 30, 2012
  Obligations Apportioned Under
    Category A                                        $ 1,161,241     $ 108,180     $1,269,421
    Category B                                              9,836             -          9,836
  Total                                               $1,171,077      $ 108,180     $1,279,257

For the Fiscal Year Ended September 30, 2011
  Obligations Apportioned Under
    Category A                                        $ 1,125,706     $   86,110    $1,211,816
    Category B                                             48,576              -        48,576
  Total                                               $1,174,282      $   86,110    $1,260,392




              These notes are an integral part of these financial statements.
                                          - 78 -
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


16. Information Related to the Statement of Budgetary Resources (continued)

Status of Undelivered Orders:

Undelivered orders (UDO) represent the amount of goods and/or services ordered, which
have not been actually or constructively received. This amount includes any orders
which may have been prepaid or advanced but for which delivery or performance has not
yet occurred.

As of September 30, 2012 and 2011
                                                          2012             2011

     UDO Obligations Unpaid                           $   156,962      $    139,274
     UDO Obligations Prepaid/Advanced                       2,465             8,401
      Total UDO                                       $   159,427      $    147,675


Legal Arrangements Affecting Use of Unobligated Balances:

Unobligated balances represent the cumulative amount of budget authority that is not
obligated and that remains available for obligation based on annual legislative
requirements and other enabling authorities, unless otherwise restricted. The use of
unobligated balances is restricted based on annual legislation requirements and other
enabling authorities. Funds are appropriated on an annual, multi-year, and no-year basis.
Appropriated funds shall expire on the last day of availability and are no longer available
for new obligations. Unobligated balances in unexpired fund symbols are available in the
next fiscal year for new obligations unless some restrictions had been placed on those
funds by law. Amounts in expired fund symbols are not available for new obligations,
but may be used to adjust previously established obligations.




              These notes are an integral part of these financial statements.
                                          - 79 -
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


16. Information Related to the Statement of Budgetary Resources (continued)

Statement of Budgetary Resources vs. the Budget of the United States Government:

The reconciliation as of September 30, 2012 is not presented because the submission of
the Budget of the United States Government (Budget) for FY 2014, which presents the
execution of the FY 2012 Budget, occurs after publication of these financial statements.
The Department of Justice Budget Appendix can be found on the OMB website
(http://www.whitehouse.gov/omb/budget) and will be available in early February 2013.

For the Fiscal Year Ended September 30, 2011
  (Dollars in millions)                                                Distributed
                                          Budgetary      Obligations    Offsetting      Net
                                           Resources      Incurred      Receipts       Outlays

Statement of Budgetary Resources (SBR)      $   1,321     $   1,260     $        4     $   1,120

Funds not Reported in the Budget
  Expired Funds                                   (31)           (7)
  Reconciling Item                                  1            (2)

   Distributed Offsetting Receipts                                               (4)          4

Budget of the United States Government      $   1,291     $   1,251     $         -    $   1,124




               These notes are an integral part of these financial statements.
                                          - 80 -
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


17. Net Custodial Revenue Activity

As an agent of the Federal government and as authorized by 26 U.S.C. § 6301, ATF
collects fees from firearms and explosives industries, as well as import, permit and
license fees. In addition, Special Occupation Taxes are collected from certain firearms
businesses. Also, miscellaneous collections include project-generated proceeds. As ATF
is unable to use these collections in its operations, ATF is required to transfer these
collections to the Treasury General Fund. The ATF custodial collections totaled $24,675
and $21,444 for the fiscal years ended September 30, 2012 and 2011, respectively.

These collections represent the balances in the Combined Statements of Custodial
Activity. These authorities are granted under the Gun Control Act, Title XI of the
Organized Crime Control Act of 1970, and the Safe Explosives Act. All authorities
granted by these laws were transferred from the Treasury to DOJ under the Homeland
Security Act of 2002.

All of the fees collected by ATF net of related refund disbursements are remitted to the
Treasury General Fund. The Treasury further distributes this revenue to Federal agencies
in accordance with various laws and regulations. There were no custodial liabilities as of
September 30, 2011 and 2012.




              These notes are an integral part of these financial statements.
                                          - 81 -
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


18. Reconciliation of Net Cost of Operations (proprietary) to Budget (formerly the
    Statement of Financing)

For the Fiscal Years Ended September 30, 2012 and 2011
                                                                                   2012           2011

Resources Used to Finance Activities

   Budgetary Resources Obligated
     Obligations Incurred                                                       $ 1,279,257    $ 1,260,392
     Less: Spending Authority from Offsetting Collections and
        Recoveries                                                                  127,566        106,579
     Obligations Net of Offsetting Collections and Recoveries                     1,151,691      1,153,813
     Less: Offsetting Receipts                                                        2,859          3,892
     Net Obligations                                                              1,148,832      1,149,921

   Other Resources
      Transfers-In/Out Without Reimbursement                                         15,949          3,153
      Imputed Financing from Costs Absorbed by Others (Note 15)                      40,346         47,544
      Net Other Resources Used to Finance Activities                                 56,295         50,697
Total Resources Used to Finance Activities                                       1,205,127      1,200,618

Resources Used to Finance Items not Part of the Net Cost of
   Operations
       Net Change in Budgetary Resources Obligated for Goods, Services,
         and Benefits Ordered but not Yet Provided                                  (13,834)       (17,138)
      Resources That Fund Expenses Recognized in Prior Periods (Note 19)               (893)        (4,074)
      Budgetary Offsetting Collections and Receipts That do not
         Affect Net Cost of Operations                                                2,859          3,892
      Resources That Finance the Acquisition of Assets                              (19,905)       (26,677)
Total Resources Used to Finance Items not Part of the Net Cost
   of Operations                                                                    (31,773)       (43,997)

Total Resources Used to Finance the Net Cost of Operations                      $ 1,173,354    $ 1,156,621




              These notes are an integral part of these financial statements.
                                          - 82 -
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


18. Reconciliation of Net Cost of Operations (proprietary) to Budget (formerly the
    Statement of Financing) (continued)

For the Fiscal Years Ended September 30, 2012 and 2011
                                                                            2012             2011

Components of Net Cost of Operations That Will not Require
  or Generate Resources in the Current Period

   Components That Will Require or Generate Resources
      in Future Periods (Note 19)                                       $        6,944   $     4,117

      Depreciation and Amortization                                             23,210        23,918
      Revaluation of Assets or Liabilities                                         218        (2,258)

Total Components of Net Cost of Operations That Will not
   Require or Generate Resources in the Current Period                          30,372        25,777

Net Cost of Operations                                                  $ 1,203,726      $ 1,182,398




              These notes are an integral part of these financial statements.
                                             - 83 -
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


19. Explanation of Differences Between Liabilities not Covered by Budgetary
    Resources and Components of Net Cost of Operations Requiring or Generating
    Resources in Future Periods

Liabilities that are not covered by realized budgetary resources and for which there is no
certainty that budgetary authority will be realized, such as the enactment of an
appropriation, are considered liabilities not covered by budgetary resources. These
liabilities totaling $188,866 and $182,719 on September 30, 2012 and 2011, respectively,
are discussed in Note 9, Liabilities not Covered by Budgetary Resources. Decreases in
these liabilities result from current year budgetary resources that were used to fund
expenses recognized in prior periods. Increases in these liabilities represent unfunded
expenses that were recognized in the current period. These increases along with the
change in the portion of exchange revenue receivables from the public, which are not
considered budgetary resources until collected, represent components of current period
net cost of operations that will require or generate budgetary resources in future periods.
The changes in liabilities not covered by budgetary resources and receivables generating
resources in future periods are comprised of the following:

For the Fiscal Years Ended September 30, 2012 and 2011
                                                                         2012          2011
Resources that Fund Expenses Recognized in Prior Periods
  Decrease in Accrued Annual and Compensatory Leave Liabilities        $ (878)     $     (511)
  Other
    Decrease in Contingent Liabilities                                      -           (3,505)
    Decrease in Other Unfunded Employment Related Liabilities             (15)               -
    Decrease in Other Post Employment Benefits Due and Payable              -              (58)
     Total Other                                                          (15)          (3,563)
     Total Resources that Fund Expenses Recognized in Prior Periods    $ (893)     $    (4,074)

Components of Net Cost of Operations That Will Require or Generate Resources in Future Periods
  (Increase)/Decrease in Receivable from the Public                        (96)            (94)
  Other
     Increase in Actuarial FECA Liabilities                              6,262          3,685
     Increase in Accrued FECA Liabilities                                  778            507
     Increase in Other Unfunded Employment Related Liabilities               -              19
      Total Other                                                        7,040          4,211
      Total Components of Net Cost of Operations That Will Require
      or Generate Resources in Future Periods                          $ 6,944     $    4,117




              These notes are an integral part of these financial statements.
                                          - 84 -
Required Supplementary Information


            Unaudited





             - 85 -
This page intentionally left blank. 





                - 86 -
                                                                       U.S. Department of Justice

                                                           Bureau of Alcohol, Tobacco, Firearms and Explosives

                                                                  Required Supplementary Information

                                                             Combining Statements of Budgetary Resources
                                                                                Unaudited

                                                                       For the Fiscal Year Ended September 30, 2012            For the Fiscal Year Ended September 30, 2011

Dollars in Thousands                                                                          2012                                                  2011

Budgetary Resources                                                   Appropriated          Trust Funds       Cumulative       Appropriated Trust Funds            Cumulative

   Unobligated Balance, Brought Forward, October 1                    $       59,938    $            1,029    $     60,967     $    109,102     $    1,029     $       110,131

   Recoveries of Prior Year Unpaid Obligations                                32,746                     -           32,746           21,159             -               21,159
   Other Changes in Unobligated Balance                                      (14,933)                    -          (14,933)          (7,780)            -               (7,780)
   Unobligated Balance from Prior Year Budget Authority, Net                  77,751                 1,029           78,780          122,481         1,029              123,510
   Appropriations                                                          1,151,866                     -        1,151,866        1,112,429             -            1,112,429
   Spending Authority from Offsetting Collections                             94,820                     -           94,820           85,420             -               85,420

Total Budgetary Resources                                             $    1,324,437    $            1,029    $   1,325,466    $ 1,320,330      $    1,029     $      1,321,359

Status of Budgetary Resources

   Obligations Incurred                                               $    1,279,257    $                 -   $   1,279,257    $ 1,260,392      $          -   $      1,260,392
   Unobligated Balance - End of Period
         Apportioned                                                          29,929                     -          29,929           38,931              -              38,931
         Unapportioned                                                        15,251                 1,029          16,280           21,007          1,029              22,036
   Total Unobligated Balance - End of Period                                  45,180                 1,029          46,209           59,938          1,029              60,967

Total Status of Budgetary Resources                                   $    1,324,437    $            1,029    $   1,325,466    $ 1,320,330      $    1,029     $      1,321,359

Change in Obligated Balance

   Obligated Balance, Net - Brought Forward, October 1
      Unpaid Obligations, Gross                                       $      245,431 $                    -   $     245,431 $   226,042         $        -     $        226,042
      Less: Uncollected Customer Payments from Federal Sources                59,852                      -          59,852      70,397                  -               70,397
         Total Obligated Balance, Net - Brought Forward, October 1           185,579                      -         185,579     155,645                  -              155,645
   Obligations Incurred                                                    1,279,257                      -       1,279,257   1,259,363              1,029            1,260,392
   Less: Gross Outlays                                                     1,233,314                      -       1,233,314   1,219,844                  -            1,219,844
   Change in Uncollected Customer Payments from Federal Sources               (7,219)                     -          (7,219)     10,545                  -               10,545
   Less: Recoveries of Prior Year Unpaid Obligations                          32,746                      -          32,746      21,159                  -               21,159

   Obligated Balance, Net - End of Period
     Unpaid Obligations                                                      258,628                      -        258,628          245,431                -           245,431
     Less: Uncollected Customer Payments from Federal Sources                 67,071                      -         67,071           59,852                -            59,852
   Total Obligated Balance, Net - End of Period                       $      191,557    $                 -   $    191,557     $    185,579     $          -   $       185,579

   Budgetary Authority and Outlays, Net:
     Budgetary Authority, Gross                                       $    1,246,686 $                    -   $   1,246,686 $ 1,197,849 $                  -   $      1,197,849
     Less: Actual Offsetting Collections                                      87,601                      -          87,601      95,965                    -             95,965
     Change in Uncollected Customer Payments from Federal Sources             (7,219)                     -          (7,219)      10,545                   -             10,545
     Budget Authority, Net                                            $    1,151,866 $                    -   $   1,151,866 $ 1,112,429 $                  -   $      1,112,429

   Outlays, Gross                                                     $    1,233,314    $                 -   $   1,233,314    $ 1,219,844      $          -   $      1,219,844
   Less: Actual Offsetting Collections                                        87,601                      -          87,601         95,965                 -             95,965
   Outlays, Net                                                            1,145,713                      -       1,145,713      1,123,879                 -          1,123,879
   Less: Distributed Offsetting Receipts                                       2,859                      -           2,859          3,892                 -              3,892
   Agency Outlays, Net                                                $    1,142,854    $                 -   $   1,142,854    $ 1,119,987      $          -   $      1,119,987




                                                                               - 87 -
This page intentionally left blank. 





                - 88 -
Other Accompanying Information

           Unaudited





           - 89 -
This page intentionally left blank. 





                - 90 -
                                    U.S. Department of Justice

                       Bureau of Alcohol, Tobacco, Firearms and Explosives

                                 Combined Schedule of Spending

                          For the Fiscal Year Ended September 30, 2012
                                           Unaudited
Dollars in Thousands

Total Amounts Agreed to be Spent
Total Resources                                                               $   1,325,466
Less: Amount Available but Not Agreed to be Spent                                    29,929
Less: Amount Not Available to be Spent                                               16,280
Total Amounts Agreed to be Spent                                              $   1,279,257



How was the Money Spent?
Personnel Compensation and Benefits
              11xx       Personnel Compensation                               $    539,938
              12xx       Personnel Benefits                                        220,419
              13xx       Benefits of Former Personnel                                4,209
              21xx       Travel & Transportation of Persons                         25,261
              22xx       Transportation of Things                                    2,760
Other Program Related Expenses
              23xx       Rent                                                       119,649
              24xx       Printing and Reproduction                                    1,002
              25xx       Other Services                                             257,027
              26xx       Supplies and Materials                                      24,308
              31xx       Equipment/IT Software                                       34,862
              32xx       Leasehold Improvements                                       3,466
              42xx       Insurance Claims and Indemnities                               413
Total Spending                                                                    1,233,314
Amounts Remaining to be Spent                                                        45,943
Total Amounts Agreed to be Spent                                              $   1,279,257




                                              - 91 -
This page intentionally left blank. 





                - 92 -
Appendix




- 93 -
This page intentionally left blank. 





                - 94 -
                                                                   APPENDIX


              OFFICE OF THE INSPECTOR GENERAL

             ANALYSIS AND SUMMARY OF ACTIONS

               NECESSARY TO CLOSE THE REPORT


      The Office of the Inspector General (OIG) provided a draft of the
Independent Auditors’ Report on Internal Control over Financial Reporting to
the Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF). ATF’s
response is incorporated in the Independent Auditors’ Report on Internal
Control over Financial Reporting of this final report. The following provides
the OIG analysis of the response and summary of actions necessary to close
the report.

Recommendation Number:

1.	   Resolved. ATF concurred with our recommendation. This
      recommendation can be closed when subsequent annual financial
      statement audit testing verifies that ATF has developed documented
      procedures for identifying and calculating seized amounts to be
      reported and disclosed in the financial statements.

2.	   Resolved. ATF concurred with our recommendation. This
      recommendation can be closed when subsequent annual financial
      statement audit testing verifies that ATF has improved supervisory
      oversight, coordination between ATF offices, and policies and
      procedures to ensure timely and accurate recording and reconciliation
      of seized currency activity; updating of property status and vault
      status fields in N-Force; and reporting of seized property current-year
      activity in the financial statement footnotes.

3.	   Resolved. ATF concurred with our recommendation. This
      recommendation can be closed when subsequent annual financial
      statement audit testing verifies that ATF has revised seized property
      inventory procedures to ensure that inventories are performed for all
      property items in N-Force with property status codes “In ATF
      Custody”, “Release Requested”, “Release Pending”, “Destruction
      Requested”, and “Destruction Pending”.

4.	   Resolved. ATF concurred with our recommendation. This
      recommendation can be closed when subsequent annual financial
      statement audit testing verifies that ATF has ensured that all field
      offices are aware of their responsibility to submit seized currency to
      Headquarters within 5 days of seizure.




                                    - 95 -
                                                                  APPENDIX



5.	   Resolved. ATF concurred with our recommendation. This
      recommendation can be closed when subsequent annual financial
      statement audit testing verifies that ATF has updated the financial
      reporting checklist to ensure that all necessary adjustments are
      recorded at year-end, and implemented financial reporting review
      procedures, such as analytical procedures, to ensure that general
      ledger accounts have expected balances.




                                    - 96 -
